<html>
<title> - LAW ENFORCEMENT RESPONSES TO MEXICAN DRUG CARTELS</title>
<body><pre>[Senate Hearing 111-528]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-528
 
           LAW ENFORCEMENT RESPONSES TO MEXICAN DRUG CARTELS

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON CRIME AND DRUGS

                                 of the

                       COMMITTEE ON THE JUDICIARY

                                and the

            SENATE CAUCUS ON INTERNATIONAL NARCOTICS CONTROL
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2009

                               __________

                          Serial No. J-111-12

                               __________

         Printed for the use of the Committee on the Judiciary



                  U.S. GOVERNMENT PRINTING OFFICE
56-913                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 ARLEN SPECTER, Pennsylvania
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          JEFF SESSIONS, Alabama
BENJAMIN L. CARDIN, Maryland         LINDSEY O. GRAHAM, South Carolina
SHELDON WHITEHOUSE, Rhode Island     JOHN CORNYN, Texas
RON WYDEN, Oregon                    TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
            Bruce A. Cohen, Chief Counsel and Staff Director
              Nicholas A. Rossi, Republican Chief Counsel
                                 ------                                

                    Subcommittee on Crime and Drugs

                 RICHARD J. DURBIN, Illinois, Chairman
HERB KOHL, Wisconsin                 LINDSEY O. GRAHAM, South Carolina
DIANNE FEINSTEIN, California         ARLEN SPECTER, Pennsylvania
RUSSELL D. FEINGOLD, Wisconsin       ORRIN G. HATCH, Utah
CHARLES E. SCHUMER, New York         CHARLES E. GRASSLEY, Iowa
BENJAMIN L. CARDIN, Maryland         JEFF SESSIONS, Alabama
AMY KLOBUCHAR, Minnesota             TOM COBURN, Oklahoma
EDWARD E. KAUFMAN, Delaware
                 Joseph Zogby, Democratic Chief Counsel
                  Walt Kuhn, Republican Chief Counsel
                                 ------                                

            Senate Caucus on International Narcotics Control

                      DIANNE FEINSTEIN, California
                       CHARLES E. GRASSLEY, Iowa
                         JEFF SESSIONS, Alabama


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................    75
Feinstein, Hon. Dianne, a U.S. Senator from the State of 
  California.....................................................     4
Graham, Hon. Lindsey, a U.S. Senator from the State of South 
  Carolina.......................................................     3
Grassley, Hon. Charles E., a U.S. Senator from the State of Iowa.     6
Klobuchar, Hon. Amy, a U.S. Senator from the State of Minnesota..    29
Sessions, Hon. Jeff, a U.S. Senator from the State of Alabama....    43

                               WITNESSES

Aguirre, Jorge Luis, Journalist, El Paso, Texas..................    40
Dresser Guerra, Denise Eugenia, Professor, Department of 
  Political Science, Instituto Tecnologico Autonomo de Mexico, 
  Mexico City, Mexico............................................    38
Goodard, Terry, Attorney General, State of Arizona, Phoenix, 
  Arizona........................................................     8
Hoover, William, Assistant Director for Field Operations, Bureau 
  of Alcohol, Tabacco, Firearms and Explosives, and Anthony P. 
  Placido, Assistant Administrator and Chief of Intelligence, 
  Drug Enforcement Administration, U.S. Deaprtment of Justice, 
  Washington, DC.................................................    11
Kibble, Kumar C., Deputy Director, Office of Investigations, 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security, Washington, DC..............................    16

                         QUESTIONS AND ANSWERS

Responses of William Hoover to questions submitted by Senator 
  Coburn.........................................................    46

                       SUBMISSIONS FOR THE RECORD

Aguirre, Jorge Luis, Journalist, El Paso, Texas, statement.......    49
Bouchard, Sheriff Michael J., President, Major County Sheriffs' 
  Association, Alexandria, Virginia, letter......................    51
Brooks, Ronald E., President, National Narcotic Officer's 
  Associations' Coalition, West Covina, California, statement....    52
Dresser Guerra, Denise Eugenia, Professor, Department of 
  Political Science, Instituto Tecnologico Autonomo de Mexico, 
  Mexico City, Mexico............................................    70
Goodard, Terry, Attorney General, State of Arizona, Phoenix, 
  Arizona, statement and response................................    77
Helmeke, Paul, President, Brady Campaign to Prevent Gun Violence, 
  Washington, DC, statement......................................    92
Hoover, William, Assistant Director for Field Operations, Bureau 
  of Alcohol, Tabacco, Firearms and Explosives, and Anthony P. 
  Placido, Assistant Administrator and Chief of Intelligence, 
  Drug Enforcement Administration, U.S. Deaprtment of Justice, 
  Washington, DC, statement......................................    97
Hurtt, Harold L., Chief of Police, Houston Police Department, 
  Houston, Texas, letter.........................................   114
Kibble, Kumar C., Deputy Director, Office of Investigations, 
  Immigration and Customs Enforcement, U.S. Department of 
  Homeland Security, Washington, DC, statement...................   117
Lansdowne, William M., Chief of Police San Diego Police 
  Department, San Diego, California, letter......................   128
National District Attorneys Association, Thomas W. Sneddon Jr., 
  Interim Executive Director, Alexandria, Virginia, letter.......   130
National Sheriffs' Association, Sheriff David A. Goad, President 
  and Aaron D. Kennard, Executive Director, Alexandria, Virginia, 
  letter.........................................................   131
Nee, Thomas J., President, National Association of Police 
  Organizations, Alexandria, Virginia, statement.................   134
Olson, Joy, Executive Director, Washington Office of Latin 
  America on the Merida Initiative, Washington, DC, statement....   137
Selee, Andrew, Ph.D., Director, Mexico Institute, Washington, DC, 
  statement......................................................   146
Slocumb, Dennis, International Executive Vice President, 
  International Union of Police Associations, Sarasota, Florida, 
  statement......................................................   151
Western Attorneys General, Chris Coppin, Legal Director, 
  Albuquerque, New Mexico........................................   154
Western Union Financial Services, Inc., Greenwood Village, 
  Colorado, statement............................................   159


           LAW ENFORCEMENT RESPONSES TO MEXICAN DRUG CARTELS

                              ----------                              


                        TUESDAY, MARCH 17, 2009

                                       U.S. Senate,
                           Subcommittee on Crime and Drugs,
                                Committee on the Judiciary,
                         and Senate Caucus on International
                                         Narcotics Control,
                                                     Washington, DC
    The Subcommittee and the Caucus met, pursuant to notice, at 
10:34 a.m., in room SD-226, Dirksen Senate Office Building, 
Hon. Richard J. Durbin, Chairman of the Subcommittee, and Hon. 
Dianne Feinstein, Chairman of the Caucus, presiding.
    Present: Senators Durbin, Feinstein, Feingold, Wyden, 
Klobuchar, Kaufman, Graham, Grassley, Specter, Sessions, and 
Kyl.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing will come to order. This is a 
joint hearing of the Senate Judiciary Committee's Crime and 
Drugs Subcommittee and the Senate International Narcotics 
Control Caucus that is chaired by Senator Feinstein. I am happy 
to be joined by my Ranking Republican Member here, Senator 
Lindsey Graham. It is my understanding that Senator Grassley 
serves as the Ranking Member--or Co-Chairman of the 
International Narcotics Control Caucus. I do not know that we 
have ever held a joint hearing, but we have common interest in 
today's issue, which is ``Law Enforcement Responses to Mexican 
Drug Cartels.''
    Since it is the first hearing, I want to thank Senator Pat 
Leahy for giving me the opportunity to chair this Subcommittee. 
Vice President Joe Biden held this gavel for many years. His 
former staffer and now successor, Senator Ted Kaufman, is here 
today. He has been invaluable in giving us tips and pointers on 
what we can do to make this Crime and Drugs Subcommittee an 
effective voice in the Congress.
    I also want to say that when Senator Graham and I first 
discussed the agenda for this Congress, we quickly agreed that 
the problem of Mexican drug cartels would be a top priority.
    Over 6,200 people died in drug-related violence in Mexico 
last year. More than 1,000 people were killed in the month of 
January this year alone, including police officers, judges, 
prosecutors, soldiers, journalists, politicians, and innocent 
bystanders.
    Today, we are going to hear firsthand testimony from two 
Mexican witnesses about the devastating human consequences of 
this violence. One of these witnesses was forced to flee his 
hometown of Ciudad Juarez, a city of 1.5 million where public 
assassinations are carried out in broad daylight and more than 
1,600 people were killed in drug-related violence in the year 
2008. Last month, the city's chief of police resigned after 
drug cartels threatened to kill a policeman every day if he 
remained on the job. And just this weekend, nine bodies were 
found in a common grave outside Juarez.
    Mexican drug cartels also pose a direct threat to 
Americans. According to a recent Justice Department report, 
Mexican drug cartels ``control most of the U.S. drug market'' 
and are ``the greatest organized crime threat to the United 
States.'' In Phoenix, Arizona, last year, 366 kidnappings for 
ransom were reported--more than in any other American city--and 
the vast majority of them were related to the Mexican drug 
trade.
    But Mexican drug cartels are not just a threat to border 
States. They are now present in at least 230 United States 
cities, up from 50 cities in the year 2006. In my home State of 
Illinois, the Justice Department found that three Mexican drug 
cartels--Federation, Gulf Coast, and Juarez--are active in the 
cities of Chicago, in my home town of East St. Louis, and 
Joliet. According to the Drug Enforcement Administration, 
Mexican drug cartels supply most of the cocaine, 
methamphetamine, and marijuana distributed in the Chicago area. 
Just last fall, the Justice Department arrested 11 alleged 
members of the Juarez cartel for distributing large quantities 
of cocaine and marijuana in Chicago. Law enforcement officials 
estimate that $10 to $24 million in drug proceeds are sent from 
Chicago to the Southwest border each month.
    What are the root causes of this crisis? As we will hear 
from our Mexican witnesses, corruption may be the largest 
obstacle Mexico faces in its efforts to contain drug 
trafficking. For example, in November, Noe Ramirez, Mexico's 
former drug czar, was arrested on charges of taking hundreds of 
thousands of dollars in bribes to pass information to the 
cartels.
    Mexico also lacks the fair and effective criminal justice 
system needed to combat the drug cartels. Mexican President 
Felipe Calderon deployed the military into regions of Mexico 
where law enforcement was no longer able to maintain order, but 
that is not a long-term fix. Investigating and prosecuting 
drug- and gun-trafficking networks is fundamentally a law 
enforcement challenge that will require sustained cooperation 
across the border and at the Federal, State and local level.
    Mexico and America are in this together, and there is 
enough blame to go around. President Calderon said last week 
that Mexico's drug cartel problem is exacerbated by being 
located next to ``the biggest consumer of drugs and the largest 
supplier of weapons in the world.'' That would be the United 
States of America.
    As this chart demonstrates, and as President Obama said 
last week, ``The drugs are coming north, and we are sending 
money and guns south. As a consequence, these cartels have 
gained extraordinary power.''
    The insatiable demand for illegal drugs in the United 
States keeps the Mexican drug cartels in business. Mexican 
Government officials estimate that approximately $10 billion in 
drug proceeds cross from the United States into Mexico each 
year in the form of bulk cash. This allows traffickers to 
expand their operations further into our country, pay off 
police and politicians, and buy more guns and weapons from the 
United States.
    The so-called ``iron river of guns'' from the United States 
arms Mexican drug cartels to the teeth. The cartels purchase 
weapons at gun shows from unlicensed sellers who are not 
required to conduct background checks. Or the cartels use 
``straw buyers'' with clean criminal records to buy guns they 
need to maintain the arsenals for their drug cartels in Mexico. 
According to ATF, more than 90 percent of the guns seized after 
raids or shootings in Mexico have been traced right here to the 
United States of America.
    What can be done to defeat these drug cartels? They are the 
new face of crime in the age of globalization. The only 
effective response to this transnational phenomenon is 
multilateral action with our allies. As President Obama said in 
his recent address to Congress, ``America cannot meet the 
threats of this century alone.''
    I look forward to hearing from our witnesses about what 
Congress can do to contribute to cooperative efforts by the 
United States and Mexican law enforcement to defeat the drug 
cartels. In particular, we have to take action to reduce the 
demand for illegal drugs in our country and stem the flow of 
guns and money into Mexico.
    Let us take one example: ATF's eTrace system for tracing 
crime guns. A decade ago, I started calling for 100-percent 
crime gun tracing in my home State of Illinois to provide basic 
information to find out where these guns were coming from. 
Today, data collected through eTrace has allowed law 
enforcement to identify numerous gun-trafficking routes 
supplying criminals. We need to do more. Even in my State, with 
this concerted effort, we have not reached the level of 
effective cooperation that we should have. Would it help to 
expand ATF's eTrace system in Mexico and Central America? That 
is a question we will ask.
    One final note: The subjects of guns and drugs often split 
us along partisan lines. When it comes to Mexican drug cartels, 
there is too much at stake to allow us to be divided. Democrats 
and Republicans need to work together to find bipartisan, 
common-sense solutions to this challenge.
    I am now going to recognize Senator Graham, followed by 
Senator Feinstein and Senator Grassley. And I would like to ask 
Senator Graham as Ranking Member of the Subcommittee for his 
opening statement.

STATEMENT OF HON. LINDSEY GRAHAM, A U.S. SENATOR FROM THE STATE 
                       OF SOUTH CAROLINA

    Senator Graham. Thank you, Mr. Chairman. As you indicated, 
we discussed this Subcommittee's role in the Congress, and, 
quite frankly, I was very encouraged and excited after our 
meeting that we can contribute to what I think is an important 
dialog when it comes to the war on our Southern border. And 
like any other war, it is a war of wills. If we have the will 
to combat the enemy forces here who happen to be drug cartels, 
we will win because our agenda for our Nation and Mexico and 
President Calderon's agenda for his country is much more 
positive. You have just got to enlist the people and give them 
confidence to take sides and get into the fight.
    In terms of the American Government's response, we have 
sent hundreds of millions of dollars, more to follow. These are 
tough economic times back here at home and throughout the 
world. But I cannot think of a better investment to make than 
to support our Mexican colleagues who are in the fight of their 
life, and, quite frankly, the fight of our lives. So when it 
comes to taxpayers' dollars being spent to help the Mexican 
army and police force, I think it is a wise investment in these 
economic down times that we live in here at home. But the world 
continues to move forward, and I look forward to working with 
Senator Durbin, who has a lot of expertise in this area, to get 
a comprehensive approach to partner with our Mexican allies and 
partners to make sure that we can win a war where you get 
nothing for finishing second.
    This is a war. You either win it or you lose it. And drug 
consumption is a problem. The guns are a problem. But at the 
end of the day, I do believe that we have more fire power than 
they do in light of the weaponry that both governments possess. 
I believe that our view of the future is better than theirs. 
And terrorism is a tough thing to combat, but when you can 
enlist the average person to jump into the fight and get on 
your side, and honest cops and honest prosecutors, then I think 
we will be well on our way to winning this.
    Mr. Chairman, thank you for picking this topic as our first 
hearing. I do not think you could have chosen better, and I 
look forward to working with you on this problem and many 
others.
    Chairman Durbin. Thanks, Senator Graham.
    Senator Feinstein.

  STATEMENT OF HON. DIANNE FEINSTEIN, A U.S. SENATOR FROM THE 
                      STATE OF CALIFORNIA

    Chairman Feinstein. Thank you very much, Mr. Chairman. I 
think you have stated the problem as well as it can be stated, 
and I do not want to repeat your words.
    I do want to say that we need to take some steps, and I am 
delighted to have the witnesses before us that are here today. 
I am delighted that Senator Grassley is here. We intend to 
reactivate the Caucus on International Narcotics Control. I 
have asked Christy McCampbell, whom I think many of you 
probably know--she formerly headed the Bureau of Narcotic 
Enforcement for the State of California, worked at Homeland 
Security, the State Department, is now in Islamabad working for 
the United Nations on drugs. And she will be here in a couple 
of weeks, and so I am looking forward to interacting much more 
with the law enforcement community through Ms. McCampbell.
    I received a letter, after a discussion with the Mexican 
ambassador, and that letter I have distributed to the 
Committee. It is dated February 4th. I have never seen deeper 
concern on an ambassador's face than in the discussions I had 
with him. He pointed out how this Mexican President has really 
put it all on the line to move to deal with these cartels, how 
vicious these cartels are. And he indicated to me that, within 
a matter of days after we talked, the Mexican Government was 
sending 5,000 troops into Ciudad Juarez. And I gather it is 
making a difference.
    He says in his letter, and I would like to quote: ``In the 
face of this problem, there is much that the U.S. Government in 
general and the U.S. Congress in particular can do to help 
Mexico roll back drug syndicates. For example, enforcing 
existent legislation, such as the Arms Export Control Act, 
would effectively criminalize the sale of weapons to 
individuals whose intent is to export those firearms to 
countries such as Mexico, where they are deemed illegal.''
    And it is my understanding that we need to fine-tune this 
to give DEA or ATF the real authority to go do something, 
because these people who go to the Phoenix drug establishments 
have plausible deniability and can buy the weapon and send it 
to Mexico, and there is very little that our enforcement agency 
can do about it. That is what I am told.
    He goes on to say, ``Furthermore, a return to the import 
ban on assault weapons in accordance with the 1968 Gun Control 
Act would prohibit the importation of assault weapons not used 
for sporting purposes.''
    As you will recall, President Clinton in an Executive order 
essentially implemented that. The Bush administration did not. 
I have a strong belief that the Obama administration should 
reinstitute it.
    He then goes on to say, ``The reintroduction and passage of 
a bill to regulate .50-caliber firearms under the National 
Firearms Act, such as the one I have sponsored during the last 
legislature, would go a long way in helping to reduce the 
number of assault weapons flowing into Mexico.''
    I am appalled that you can buy a .50-caliber sniper weapon 
anywhere, not only--it is not restricted to a Federal firearms 
dealer. You can just buy it. And this is a weapon that will 
send a 5-inch bullet a great distance and permeate barrier 
walls. So I do not quite understand why we should not have some 
real regulations concerning its sale.
    He goes on to say, ``Beyond the enforcement of existing 
legislation and the enactment of new provisions, three main 
agencies that have authority over the issue--the Bureau of 
Alcohol, Tobacco, and Firearms, Immigration and Customs 
Enforcement, and Customs and Border Protection--are all in dire 
need of the resources that would enhance their interdiction and 
intelligence capabilities, and enable them to interdict 
southbound weapons on the United States side of our common 
border, and to investigate, determine, and detain individuals 
that are building weapons from gun shows and FFL dealers so as 
to introduce them illegally into Mexico.''
    Now, this is the Mexican ambassador to the United States, 
and I would be most interested in hearing from our enforcement 
agencies specifically what they can do in this emergency. If, 
in fact, they are shorthanded, what is it they need? If they 
need changes in law, what do they need? It is unacceptable to 
have 90 percent of the guns that are picked up in Mexico used 
to shoot judges, police officers, mayors, kidnap innocent 
people, and do terrible things come from the United States. And 
I think we must put a stop to that.
    So I would be very interested in hearing your comments, and 
I thank you for your leadership, Mr. Chairman.
    Chairman Durbin. Thanks, Senator Feinstein.
    Senator Grassley.

STATEMENT OF HON. CHUCK GRASSLEY, A U.S. SENATOR FROM THE STATE 
                            OF IOWA

    Senator Grassley. Thank you, Mr. Chairman. Thank you for 
holding this hearing. Senator Feinstein has projected very 
forceful and energetic work for our Caucus. I intend to fully 
cooperate with that. I thank her for that effort and upcoming 
whatever it is.
    Also, for the witnesses, I will be in and out because down 
the hall I am Ranking Member in the Finance Committee, and we 
have a hearing going on there.
    I want to also recognize, as a couple of my colleagues 
have, the efforts of the President of Mexico. I suppose we can 
always say more can be done, and I am sure this hearing will 
say that. But, also, I think we need to say thank you for what 
he is doing, because it seems to me that he is doing more than 
any other President of Mexico has.
    A root cause of this increasing violence is drug cartels, 
commonly referred to the in law enforcement community as 
``drug-trafficking organizations.'' DTOs pollute our streets 
with drugs and have been waging an increasingly violent battle 
against each other, also with law enforcement, and many 
innocent victims are caught in the crossfire. Today's hearing 
is to see what our law enforcement agencies are doing to put a 
stop to the violence.
    Since 9/11, the Federal Government has stepped up border 
security at all of our ports of entry. This increased scrutiny 
has reduced available smuggling routes and has placed pressure 
on DTOs that rely on them to bring illegal narcotics, money, 
and weapons over our border. As a result, the available 
smuggling routes have become increasingly valuable, and the 
level of violence has escalated as DTOs compete for a limited 
number of available avenues.
    Despite recent progress, the profits available from DTOs 
that operate the drug trade continue to rise and fuel conflict. 
For example, Forbes announced last week that a Mexican druglord 
who heads the powerful Sinaloa cartel was ranked in an annual 
list of wealthy individuals with an estimated fortune of over 
$1 billion.
    I do not believe that any one problem is the root cause of 
security problems throughout the Southwest. What we need is an 
effective, comprehensive strategy that addresses each of the 
problems at the border, including drug smuggling, human 
trafficking, illegal immigration, bulk cash smuggling and money 
laundering, as well as gun smuggling.
    However, to fully eradicate border violence, we cannot act 
alone. Mexico must change its internal political and legal 
framework to make its corruption improve. Only when we focus on 
all these issues in concert will we begin to address the 
problem of border violence.
    There are a number of areas that I am interested in: First, 
looking at law enforcement in this panel about their efforts to 
coordinate operations, particularly how these agencies 
coordinate overlapping jurisdictions and collaborate to enforce 
our drug, gun, and money-laundering laws. For instance, under 
Title 18, Congress provided for enforcement by many different 
partners. Congress cannot legislate all the necessary details, 
so we have memorandums of understanding filling in those 
blanks. These MOUs cover virtually all issues along the border, 
including narcotics investigation, money laundering, weapons 
smuggling. Unfortunately, many of these MOUs are significantly 
outdated. I have been asking both Homeland Security and Justice 
to update these MOUs for the last couple of years. Secretary 
Chertoff responded that at least one MOU needs to be updated. I 
have also raised the issue with Attorney General Holder and 
Secretary Napolitano.
    Second, I am interested in discussing efforts to cut down 
on criminal money laundering. I am not going to go into detail 
on that. I will put that in the record.
    Finally, I am interested in hearing about efforts underway 
at ATF and ICE to combat illicit arms smuggling into Mexico. I 
want to ask about the status of Project Gunrunner, Armas 
Cruzadas, and the resources dedicated to combating illicit arms 
trade at our borders. I think that any effort on our part must 
focus on interdiction of illegal weapons as well as tracing 
weapons used in crimes in Mexico. I want to make sure first and 
foremost that we are doing everything within our power to 
enforce the existing laws on the books. However, stopping the 
flow of illegal weapons is not only an American problem. Our 
partners in Mexico also need to step up their efforts and build 
upon recent initiatives to interdict contraband coming into 
Mexico. As I said, we cannot act alone.
    I would like to have my entire statement put in the record.
    Chairman Durbin. Without objection, the statement will be 
made part of the record.
    [The prepared statement of Senator Grassley appears as a 
submission for the record.]
    Chairman Durbin. I thank Senators Feingold and Kaufman for 
waiving their right to opening statements in the interest of 
moving the hearing along.
    We are going to turn to our first panel of witnesses for 
their opening statements. They will be speaking, each of them, 
for 5 minutes. Their written statements have been submitted in 
advance. We have had a chance to review them, and they will be 
a part of the permanent record of this Committee.
    At this point, I am going to swear in the witnesses, which 
is the custom of the Committee, if they would please stand. 
Raise your right hand. Do you affirm that the testimony you are 
about to give will be the truth, the whole truth, and nothing 
but the truth, so help you God?
    Mr. Goddard. I do.
    Mr. Hoover. I do.
    Mr. Placido. I do.
    Mr. Kibble. I do.
    Chairman Durbin. Thank you. Let the record reflect that the 
witnesses have answered in the affirmative.
    Our first witness is Terry Goddard, a consensus witness 
from both Democrats and Republicans. It is a reflection of the 
respect that we have for the job that you are doing as Attorney 
General in the State of Arizona. Your background includes many 
areas of public service, including one of most challenging--
being the mayor of a big city. And you did it for a number of 
years, having been elected mayor of the city of Phoenix four 
times.
    Since becoming the State's top law enforcement official in 
2003, Mr. Goddard has, among other priorities, focused on 
taking action against illegal trafficking in drugs, arms, 
money, and human beings. He served as Arizona Director for the 
U.S. Department of Housing and Urban Development and, as I 
said, mayor of Phoenix. He holds a law degree from Arizona 
State University.
    Thanks for coming from Phoenix to be here today, Attorney 
General. The floor is yours.

STATEMENT OF TERRY GODDARD, ATTORNEY GENERAL, STATE OF ARIZONA, 
                        PHOENIX, ARIZONA

    Mr. Goddard. Thank you, Chairman Durbin, Chairwoman 
Feinstein, Ranking Member Graham, Ranking Member Grassley, 
distinguished members of the Crime and Drugs Subcommittee and 
the Caucus on International Narcotics Control. It is a pleasure 
and an honor to be here and to try to help you address an issue 
of critical importance to our State, the State of Arizona, and 
to the Nation. The comments that have already been made do 
better than I could to put this incredible issue into focus, 
and so I will omit some of the comments I was going to make in 
terms of setting the stage, Mr. Chairman. But I do hope that 
some of our specific experiences in the State of Arizona 
combating the organized criminal cartels that members of this 
Committee have already referred to can be helpful to your 
deliberations.
    The threat posted to American citizens and communities by 
the Mexican-based drug-trafficking organizations cannot be 
underestimated. It has been referred to frequently, and I think 
accurately, as ``the organized criminal threat of the 21st 
century.''
    Law enforcement in the State of Arizona has been on the 
front lines for many years--I think sometimes we feel virtually 
alone--in taking on these vicious and very well organized 
criminals.
    As has been mentioned, the violence in Mexico is the result 
of drug cartels fighting against law enforcement, the Mexican 
Army, and each other; and it has reached unprecedented body 
counts of unprecedented proportions, which you have already 
referred to. I would add, however, that the bloodshed has 
included, as Senator Feinstein noted, an appalling spike in 
assassinations of police officers, prosecutors, and government 
officials. It is not just cartel-on-cartel violence that we are 
talking about here. And it is not just a Mexican problem, and I 
think that has already been made clear by members of this 
Committee. But what we see, although most of the body count has 
been in Mexico, we have violent activities in the State of 
Arizona and moving north of the border that certainly should be 
a cause for alarm.
    The high profit in the trade in drugs, arms, and human 
beings--I would add one thing, Mr. Chairman, to the chart that 
you just showed. It is really a four-part trade, and it has 
caused crime throughout the United States. In the Southwest 
border region, we feel especially impacted. Arizona has become 
the gateway for drugs and human being smuggling into the rest 
of the United States.
    Phoenix and Tucson have become gateway and destination 
locations for further distribution of both drugs and human 
beings, and as was noted, in the past few years the city of 
Phoenix, my city, has become known as the kidnapping capital of 
the United States. Over 700 kidnappings in the last 2 years 
have afflicted that city, and police believe that well over 
twice that number may have gone unreported. So it is a very 
serious problem.
    Like all organized criminal activity, the cross-border 
crime between Mexico and Arizona is about money. I know that is 
no surprise to anyone here, but smuggling drugs and human 
beings depends upon moving vast sums of funds. Reference has 
been made to bulk cash transactions in the billions of dollars, 
but we also have been confronting in Arizona the electronic 
funds transfer, which is critical to the movement of human 
beings. And that I believe also should be added to this 
Committee's agenda in terms of concern. The money laundering 
not only in bulk cash but in electronic funds transfer is 
extremely serious.
    We have found in Arizona that the most effective way to 
establish a virtual barrier against the criminal activities is 
to take the profit out of it, to find some way to take the 
money away from the cartels.
    The Arizona Attorney General's Office has been aggressively 
intercepting what we now call ``blood wires.'' Those are the 
payments to human smugglers, or ``coyotes,'' as we know them, 
which is largely done by wire transfer. Between 2003 and 2007, 
my office seized more than $17 million in wire transfers 
destined to human smugglers and in the process arrested well 
over 100 coyotes.
    Seizing the money has reduced the volume of suspect wire 
transfers into Arizona by hundreds of millions of dollars. But, 
not surprisingly, it has simply been displaced into money 
transfer locations in northern Mexico. My office then targeted 
26 wire transfer locations in Mexico, and a legal battle 
ensued, which hopefully will be over in the next few months.
    Western Union, by far the largest provider of electronic 
funds transfer services, and other wire transmitters could be 
providing valuable information about illegal money 
transmissions and help us put the illegal transmitters out of 
business. But instead of cooperation, Western Union has made 
every effort to prevent data disclosure and identification of 
criminal activity which we could be able to make from that 
disclosure.
    In addition to the blood wire seizures, Arizona law 
enforcement has had other spectacular successes. In the past 
year, my office, together with Federal and local officials--a 
critical partnership--has broken up a major arms-trafficking 
operation; a coyote organization that smuggled over 10,000 
persons a year across the border; another similar organization 
which transported over 8,000 people around the United States--
not across the border but across the country; a drug-smuggling 
enterprise that in the last 4 years brought 2 million pounds of 
marijuana into the United States with a wholesale value of over 
$1 billion.
    Our experience in Arizona shows that we need a region-wide, 
bi-national effort to stop the sophisticated, well-organized 
criminals smuggling drugs, people, guns, and money across our 
Southern border. Otherwise, these criminals will easily 
displace their activity into another area with less 
surveillance.
    No single law enforcement agency--Federal, State, or 
local--acting alone has the manpower, jurisdiction, or 
expertise to prevail against these highly organized and 
sophisticated criminals. Cooperation and intelligence sharing 
are necessary within our country and across the border.
    We also have to identify and take down the whole criminal 
organization. That is what my office has tried to do in the 
prosecutions that I referred to. Just arresting and deporting 
foot soldiers is a waste of critical assets.
    Finally, I think we can cooperate much better with law 
enforcement in Mexico. For far too long, organized criminals 
have been able to use the border as a refuge, as a shelter. One 
important tool is a section of the Mexican penal code called 
Article 4. Under Article 4, as you probably are aware, Mexican 
authorities may prosecute a crime committed in the United 
States as if it had been committed in Mexico. My office has 
done a number of these prosecutions where, if the suspect is 
convicted, they will then be incarcerated in Mexico. The 
punishment would be carried out there.
    Last year, we entered into a new effort to use Article 4 
not just for arrest and trial of identified suspects, but for 
the joint investigation where the identity of the perpetrator 
is not known. One such investigation is underway right now into 
a cold-blooded killing in a drop house of someone named Javier 
by one of the smugglers, one of the coyotes. We are not yet in 
a position to proclaim success, but we have been working 
together with Mexican authorities to try to find this murderer 
and to bring him to justice. And I am very hopeful that this 
will go a long way toward making the border transparent as to 
criminals who are trying to avoid apprehension.
    In our fight against the drug cartels, Congress can and 
should play a very significant role. First, you can support the 
leadership role already undertaken with the Merida Initiative, 
continue to appropriate funding to assist Mexican law 
enforcement efforts against the cartels. Treasury, Justice, and 
Homeland Security can use additional resources, I am sure, for 
their successful partnerships with State and local law 
enforcement.
    HIDTA, the High-Intensity Drug-Trafficking Area, could 
expand and I think should expand its scope to include human 
smuggling and weapons trafficking, along with drug trafficking, 
in its mission. We also need a region-wide, bi-national 
coordinated attack on corrupt money transmitters. We estimated 
on both sides of the border there may be as many as 400 
operations that, in fact, are breaking the money-laundering 
laws, but they are not being apprehended. In that effort, we 
need additional tools, coordinated regulation of money 
transmitters on both sides of the border, region-wide data on 
electronic transfers to identify potentially criminal 
transmitters, and trace all money going to them--something that 
our office has tried to do, but we are right now prohibited or 
prevented from getting that information from Western Union.
    And we should lower the threshold for mandatory reporting 
of single action money transfers. Currently it is $10,000. I 
believe it could effectively be--we would be much more 
effective if it was lowered. And in this area, stored value 
cards and devices are already being used to avoid our money-
laundering laws. It is a huge loophole in our anti-money-
laundering efforts, and I believe we can expand the definition 
of ``monetary instruments'' subject to reporting to include 
prepaid stored value cards. At the very least, all stored value 
cards should be required to be readable by law enforcement 
agents. Right now, they cannot decipher them. If they impound a 
card during a stop, they do not know how much it is worth.
    Violence in Mexico will not be contained unless and until 
Mexican drug cartels are dismantled. It is in the interest of 
the United States to not only assist Mexico in this effort, but 
to step up our own activities to dismantle the criminal 
organizations operating across our border. The best way to do 
that is to cutoff their illegal supply of funds.
    In Arizona, we are working hard to disrupt the flow of 
criminal proceeds to the cartels. We are coordinating at every 
level of law enforcement and reaching across the border, but we 
cannot do this alone. We face an urgent public safety 
challenge, and we need Federal cooperation, coordination, and 
resources if we are to prevail.
    Mr. Chairman, thank you very much.
    [The prepared statement of Mr. Goddard appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much, Mr. Goddard.
    Our next witness, William Hoover, is here to represent the 
Department of Justice's Bureau of Alcohol, Tobacco, Firearms 
and Explosives. He is Assistant Director of Field Operations. 
In that capacity, he oversees their operations on our Southwest 
border. He has held many positions before, including Special 
Agent in Charge of the Washington Field Division.
    Thanks for joining us, and the floor is yours for a 5-
minute statement. Your written statement will be made part of 
the record.

   STATEMENT OF WILLIAM HOOVER, ASSISTANT DIRECTOR FOR FIELD 
     OPERATIONS, BUREAU OF ALCOHOL, TOBACCO, FIREARMS AND 
EXPLOSIVES, AND ANTHONY P. PLACIDO, ASSISTANT ADMINISTRATOR AND 
 CHIEF OF INTELLIGENCE, DRUG ENFORCEMENT ADMINISTRATION, U.S. 
            DEPARTMENT OF JUSTICE, WASHINGTON, D.C.

    Mr. Hoover. Thank you, sir. Chairman Durbin, Senator 
Graham, and distinguished members of the Subcommittee, I am 
honored to appear before you today to discuss ATF's ongoing 
role in preventing firearms from being illegally trafficked 
from the U.S. into Mexico and work to reduce the associated 
violence along the border. I also want to thank you for your 
support of Project Gunrunner that you have recently shown.
    For over 30 years, ATF has been protecting our citizens and 
communities from violent criminals and criminal organizations 
by safeguarding them from the illegal use of firearms and 
explosives. We are responsible for both regulating the firearms 
and explosives industries and enforcing the criminal laws 
relating to those commodities. ATF has the expertise, 
experience, tools, and commitment to investigate and disrupt 
groups and individuals who obtain guns in the U.S. and 
illegally traffic them into Mexico in facilitation of the drug 
trade.
    The combination of ATF's crime-fighting experience, 
regulatory authority, analytical capability, and the strategic 
partnerships is used to combat firearms trafficking both along 
the U.S. borders and throughout the Nation. For instance, from 
fiscal year 2007 through 2008, Project Gunrunner--ATF's 
strategy for disrupting the flow of firearms to Mexico--has 
initiated 1,840 investigations. Those cases include 382 
firearms-trafficking cases involving 1,035 defendants and an 
estimated 12,835 firearms.
    For an example, an 11-month investigation into a Phoenix 
area gun dealer revealed a trafficking scheme involving at 
least 650 firearms, including 250 AK-47s semiautomatic rifles 
that were trafficked to Mexican drug cartels. One of the 
pistols was recovered on the person of an alleged cartel boss. 
The investigation that is currently under prosecution resulted 
in the May 2008 arrest of three defendants and the seizure of 
1,300 guns.
    While the greatest proportion of firearms trafficked to 
Mexico originate out of the United States along the Southwest 
border, ATF trace data has established that drug traffickers 
are also acquiring firearms from other States as far east as 
Florida and as far north and west as Washington State. A case 
from April 2008 involving a violent shootout that resulted in 
13 deaths will illustrate that point. ATF assisted Mexican 
authorities in tracing 60 firearms recovered at a crime scene 
in Tijuana. As a result, leads have been forwarded to ATF field 
divisions in Denver, Houston, Los Angeles, Philadelphia, 
Phoenix, San Francisco, and Seattle to interview the first 
known purchasers of those firearms. These investigations are 
continuing.
    Additionally, drug traffickers are known to supplement 
their firearm caches with explosives. Our expertise with 
explosives has proven to be another valuable tool to use in the 
fight against these drug cartels. In fact, in the past 6 
months, we have noted a troubling increase in the number of 
grenades seized from or used by drug traffickers. We are 
concerned about the possibility of explosives-related violence 
impacting our U.S. border towns.
    We have had at least one such incident in San Juan, Texas, 
when a hand grenade was thrown into a crowd of about 20 
patrons. ATF was able to identify the grenade and believes it 
is linked to a drug cartel. Moreover, we believe these devices 
were from the same source as those used during an attack on our 
U.S. consulate in Monterrey, Mexico.
    ATF's Project Gunrunner includes approximately 148 special 
agents dedicated to investigating firearms trafficking on a 
full-time basis and 59 industry operations investigators 
responsible for conducting regulatory inspections of federally 
licensed gun dealers, known as ``Federal firearms licensees.'' 
As the sole agency that regulates FFLs--roughly 6,700 of which 
are along the Southwest border--ATF has the statutory authority 
to inspect and examine the records and inventory of the 
licensees for firearms-trafficking trends and patterns, and 
also to revoke the licenses of those who are complicit in 
firearms trafficking.
    For instance, ATF used its regulatory authority to review 
the records of an FFL in El Paso, Texas, to identify firearms 
traffickers who purchased 75 firearms that were sold to corrupt 
local and Federal officials. Our investigation led to the 
arrest of 12 individuals in November, and the sentences ranged 
from 36 months to 2 years.
    An essential component of ATF's strategy to curtail 
firearms trafficking to Mexico is the tracing of firearms 
seized in both countries. Using this information, ATF can 
establish the identity of the first retail purchaser of the 
firearm and possibly learn pertinent information, such as how 
the gun came to be used in the facilitation of a crime or how 
it came to be located in Mexico. Furthermore, analysis of the 
trace aggregate data can reveal drug-trafficking trends and 
networks, showing where the guns are purchased, who is 
purchasing them, and how they flow across the border. I would 
like to note an example of how trace data was used to identify 
a firearms trafficker.
    ATF's analysis of trace data linked a man living in a city 
along the border to three crime guns recovered at three 
different crime scenes in Mexico. Further investigation of that 
information uncovered that he was the purchaser of a fourth 
firearm recovered at yet another crime scene in Mexico, and 
that he had purchased 111 AR-15 type receivers and seven 
additional firearms within a short time span using nine 
different FFL wholesale distributors as sources for his guns.
    In April 2008, we seized 80 firearms from the suspect and 
learned that he was actually manufacturing guns in his 
residence. He sold over 100 guns alone to an individual who is 
suspected of being linked to a cartel. Investigation leads are 
being pursued, and charges are pending in that investigation.
    Chairman Durbin, Senator Graham, distinguished members of 
the Subcommittee, on behalf of the men and women of ATF, again 
I want to thank you for your support of our crucial work. With 
the backing of this Subcommittee, ATF can continue to build on 
our accomplishments, making our Nation more secure.
    Thank you.
    Chairman Durbin. Thank you, Mr. Hoover.
    The next witness is Anthony Placido. He is here on behalf 
of the Justice Department's Drug Enforcement Administration. He 
is the Assistant Administrator and Chief of Intelligence, 
responsible for developing the agency's global intelligence 
collection enterprise. He previously served as Special Agent in 
Charge of the New York Field Division and Regional Director of 
the Mexico-Central America Division, and has 30 years of 
Federal law enforcement experience.
    Thank you for joining us. Please proceed.
    Mr. Placido. Mr. Chairman, members of the Committee, thank 
you very much for the opportunity to appear before you today 
and to discuss this issue of importance to the Nation.
    If I may thank you for the kind introduction and elaborate 
just one item further that may be relevant to this Committee, I 
also serve as the Co-Chair of a group called the Anti-Drug 
Intelligence Community Team, or ADICT. It is an organization of 
13 U.S. Government agencies with counter-drug intelligence 
responsibilities, and that group has been very heavily focused 
on this issue for quite some time.
    My testimony today does not represent my personal 
perspectives alone but represents, rather, the collective 
judgment of DEA staff located in 11 offices throughout the 
Republic of Mexico, as well as those of DEA agents and 
employees posted in 227 domestic and 123 foreign offices around 
the globe. On behalf of the Acting Administrator, Michele 
Leonhart, and the nearly 10,000 men and women of DEA, I am 
honored to have the opportunity to share these perspectives 
with you today.
    Almost immediately following his inauguration as the 
President of Mexico, Felipe Calderon, of his own volition, 
initiated a comprehensive program to break the power and 
impunity of the drug cartels. As a consequence of that effort, 
there has been a sharp spike in murders and violence in Mexico. 
It has caused some, including Homeland Security Magazine, to 
speculate about the likelihood of Mexico failing in its effort 
and for our purposes, and by extension, created a discussion 
about whether the violence would spill over our Southwest 
border at increased levels and with adverse consequences to 
U.S. interests.
    DEA believes that the remarkable commitment of President 
Calderon has resulted in his government making important 
strides to reduce the immense power and corruptive influence of 
these well-entrenched drug cartels. We assess that the 
increased level of violence that currently plagues Mexico 
represents in large measure a desperate attempt by drug 
traffickers to resist the sustained efforts of a very 
determined Mexican administration. It is not the harbinger of 
imminent failure.
    Since the Calderon administration assumed power, the 
Government of Mexico has made record seizures of drugs, 
clandestine laboratories, weapons, and cash. They have arrested 
large numbers of defendants, including high-level 
representatives of all of the major cartels and, in 
unprecedented fashion, have extradited more than 178 of these 
defendants to face justice in the United States.
    They have also made advances in the more difficult process 
of reforming their institutions and have vetted and trained 
police, prosecutors, and jailers, established a new organized 
crime tribunal, and have addressed corruption as never before.
    We are also seeing benefits closer to home. Beginning in 
January of 2007, immediately after President Calderon was 
installed, we began to see and have seen a 24-month sustained 
period of increased price and decreased purity in nearly every 
cocaine market in the United States. Over that 2-year period, 
the price has more than doubled, up 104 percent, and purity has 
fallen by almost 35 percent.
    Mexican drug-trafficking organizations have been placed 
under unprecedented stress as a result of the sustained efforts 
by the Government of Mexico together with DEA, the U.S. 
Interagency, and our partners throughout the region. We are 
mindful, however, that the success against these powerful 
criminal adversaries is far from certain and that the 
consequences of these transnational criminals prevailing in 
their bloody contest with the Calderon administration would 
pose devastating consequences to the safety and security of 
people on both sides of the border.
    Through the Merida Initiative and the funding generously 
provided by this Congress, our Mexican counterparts have 
additional resources to break the power and impunity of these 
cartels. However, we continue to hear accounts of the horrific 
violence in Mexico and must assess the potential for this 
activity to spill over our border.
    It is important to understand that violence has always been 
part of the Mexican drug trade and that criminal syndicates 
fight each other for control of a very lucrative market. DEA 
assesses that the current surge in violence is driven in large 
measure by the Government of Mexico's offensive against these 
traffickers, who in turn perceive themselves to be fighting for 
a larger share of a shrinking market.
    While the cartels are fighting each other and increasingly 
pushing back against the Government of Mexico in unprecedented 
fashion, neither DEA nor the U.S. Interagency assesses that in 
the near term the cartels will deliberately target U.S. 
Government personnel or interests or intentionally target U.S. 
civilians in the United States. Defining spillover is a tricky 
business, and in the interest of the brevity of my opening 
statement, I will defer to later a more robust discussion of 
that. But we recognize that we are witnessing acts of true 
desperation, the actions of wounded, vulnerable, and dangerous 
criminal organizations. DEA and the Interagency will continue 
to monitor this situation closely for warnings and indications 
of deliberate targeting of U.S. interests beyond the 
established modes of trafficker-on-trafficker or criminal-on-
criminal violence.
    I would like to conclude briefly by highlighting just a few 
of the important initiatives DEA has undertaken in cooperation 
with the Government of Mexico, our interagency and 
international partners to address this problem.
    For 27 years, DEA has been running something called IDEC, 
the International Drug Enforcement Conference, that brings 
together currently more than 90 countries from around the world 
and their senior-most leadership on the counter-drug front. 
This year, that conference will be held in Mexico, and Mexico 
will take a leadership role, will also help to build strategies 
and coalitions among our partners to address this.
    For several years, we have facilitated a series of 
meetings, which we call the ``tripartite meetings,'' between 
Colombia, Mexico, and the U.S. Government. Those meetings are 
beginning to bear fruit, and we currently now have vetted 
representatives of both the Colombian and Mexican Government 
inside the walls of the El Paso Intelligence Center to help us 
build strategies and execute plans to protect our borders.
    DEA has also developed and, together with our Federal 
partners begun deployment of a system of license plate readers 
along the entire Southwest border that will focus on the 
identification of vehicles known or suspected to be 
transporting bulk currency or weapons into Mexico. Early 
results from this effort are promising, and we are hopeful that 
this tool will prove effective in reducing the southbound flow 
of cash and weapons into Mexico.
    Since DEA was created in 1973, the agency's hallmark has 
been to target those who organize, direct, and finance 
transnational crime. Nearly two decades ago, DEA made 
significant advances in this regard when it created the multi-
agency Special Operations Division to identify connections 
among and between seemingly disparate investigations between 
distinct elements of DEA, our interagency and international 
partners. This interagency coordination process has been 
essential in driving enforcement successes such as Project 
Reckoning, which targeted Mexico's Gulf cartel, and Operation 
Accelerator, which targeted Mexico's Sinaloa cartel.
    These DEA-led operations represent the most successful 
joint law enforcement efforts undertaken between the United 
States and the Government of Mexico and together resulted in 
over 1,350 arrests, the seizure of thousands of pounds of 
methamphetamine, tens of thousands of pounds of marijuana, more 
than 20,000 kilograms of cocaine, hundreds of weapons, and $130 
million in cash and assets. DEA is convinced that this 
interagency coordination and collaboration process is essential 
to the effectiveness of our Nation's counter-drug effort.
    Finally, my colleague from Arizona mentioned the threat of 
money remittances, and the DEA Operation High Wire, through 
this Special Operations Division connected 89 distinct 
investigations targeting money remitters who are facilitating 
the illicit drug trafficking by moving the proceeds of U.S. 
drug sales back to Mexico. The operation netted in excess of 
$32 million in cash.
    We remain committed to working with both our domestic and 
international partners to target the command-and-control 
elements of these transnational drug-trafficking organizations, 
to stem the flow of bulk cash and weapons south into Mexico, 
while also working to sustain the disruption of drug 
transportation routes northward.
    Mr. Chairman, thank you for this opportunity to appear, and 
I will be glad to take questions at the appropriate time.
    [The prepared statement of Messrs. Hoover and Placido 
appears as a submission for the record.]
    Chairman Durbin. Thank you, Mr. Placido.
    We will go slightly out of order here. Senator Kyl has 
asked for a moment to acknowledge one of our witnesses.
    Senator Kyl. Well, thank you, Mr. Chairman. I really 
appreciate your indulgence. I had intended to be here a little 
bit earlier so I would not be as disruptive, and I will have to 
leave in just a moment, but I did want to put in a very good 
word for Arizona Attorney General Terry Goddard and commend you 
for holding this hearing. You have got a very distinguished 
panel. I look forward to reading the testimony of all of the 
witnesses. I had hoped to pass on some other indications of the 
great work that Terry Goddard has been doing on this subject in 
Arizona. It is a very important subject, and I appreciate the 
Committee's consideration of it. Thanks.
    Chairman Durbin. Thank you very much, Senator Kyl. I might 
add that your colleague Senator McCain has also recommended Mr. 
Goddard's testimony, so you come here with the highest 
recommendations.
    Our next witness, Kumar Kibble, is here to represent U.S. 
Immigration and Customs Enforcement. He is Deputy Director of 
ICE's Office of Investigations, serving as ICE's Chief 
Operating Officer, and a graduate of West Point.
    Please proceed. You have 5 minutes to give oral testimony, 
and then we will ask some questions.

   STATEMENT OF KUMAR C. KIBBLE, DEPUTY DIRECTOR, OFFICE OF 
   INVESTIGATIONS, IMMIGRATION AND CUSTOMS ENFORCEMENT, U.S. 
       DEPARTMENT OF HOMELAND SECURITY, WASHINGTON, D.C.

    Mr. Kibble. Chairman Durbin, Chairwoman Feinstein, Ranking 
Member Graham, Ranking Member Grassley, and distinguished 
members of the Subcommittee and Caucus, on behalf of Secretary 
Napolitano and Acting Assistant Secretary Torres, I thank you 
for the opportunity to discuss ICE's efforts to combat cross-
border crime and related violence. ICE has the most expansive 
investigative authority and the largest force of investigators 
within DHS, but this challenge cannot be addressed by any one 
agency. Partnerships are essential, and ICE works closely with 
foreign, Federal, tribal, State, and local agencies to secure 
our borders, including the agencies that my colleagues here 
today represent.
    DHS recognizes that southbound weapons smuggling is a grave 
concern amid the growing violence along our border with Mexico. 
This violence requires a comprehensive, bilateral effort, and 
on January the 30th, Secretary Napolitano responded by issuing 
a Border Security Action Directive which focused the wide-
ranging authorities of the Department on the violence along our 
Southern border. The Secretary emphasized the necessity of a 
broad, multi-agency response to attack the flow of weapons and 
money that continues to fuel the violence. ICE contributes to 
this fight principally through two bilateral initiatives: 
Operation Firewall to counter bulk cash smuggling; as well as 
Operation Armas Cruzadas, to counter weapons smuggling.
    The ICE-led Border Enforcement Security Task Forces provide 
a comprehensive, multi-agency platform to fight these 
particular threats. Under Armas Cruzadas, U.S. and Mexican 
investigators synchronize bilateral law enforcement and 
intelligence-sharing activities in order to detect, disrupt, 
and dismantle these weapons-smuggling networks. Key supporting 
actions include: use of ICE's longstanding authorities under 
the Arms Export Control Act, as well as newly acquired export 
authority that is particularly useful in targeting these 
weapons-smuggling networks.
    To more seamlessly investigate these networks that span our 
common border, BESTs, ICE attache offices, a U.S.-vetted 
Mexican Arms Trafficking Group, and the ICE Border Violence 
Intelligence Cell exchange weapons-related intelligence. For 
example, in August of last year, an ICE investigation developed 
information that was rapidly shared with Mexican investigators 
regarding a safe house in Nogales, Sonora, used by hit men from 
the Vicente Carillo Fuentes organization. A subsequent search 
warrant at the residence resulted in six arrests, the seizure 
of police uniforms, a large amount of U.S. currency, 12 
weapons, and four stolen U.S. vehicles. Intelligence stemming 
from single actions like this are analyzed by the Border 
Violence Intelligence Cell, and in December of last year, this 
cell, in conjunction with other DHS intelligence components, 
produced a strategic assessment focused on southbound weapons 
smuggling that informed our current operations along the 
Southwest border.
    Let me share another example of how ICE partners with 
others, such as ATF and local investigators, in combating 
weapons smuggling. ICE, ATF, and the San Antonio Police 
Department initiated an investigation of Ernesto Olvera-Garza, 
a Mexican national that at the time of his arrest in October of 
2007 trafficked in high-powered, high-capacity handguns and 
assault rifles. He led a gun-smuggling conspiracy that 
purchased and smuggled more than 50 weapons into Mexico. One of 
these weapons was recovered after it was used in a gun battle 
where two Mexican soldiers were killed. Olvera-Garza has 
pleaded guilty and is currently pending sentencing.
    Altogether, since the initiation of Armas Cruzadas, DHS has 
seized 420 weapons, more than 110,000 rounds of ammunition, and 
arrested more than 100 individuals on criminal charges.
    Another and one of the most effective methods in dealing 
with violent, transnational criminal organizations is to attack 
the criminal proceeds that fund their operations. As we have 
hardened formal financial systems throughout the United States, 
the smuggling of bulk currency out of the country has been on 
the rise. ICE investigates bulk cash smuggling as part of its 
cross-border crime portfolio. ICE and CBP have conducted 
Operation Firewall interdiction operations and investigations 
with Mexican Customs and an ICE-trained Mexican Money 
Laundering Vetted Unit. Since its inception, Firewall has 
resulted in the seizure of over $178 million, including over 
$62 million which has been seized overseas and has resulted in 
more than 400 arrests.
    As I mentioned before, the principal investigative platform 
for both Armas Cruzadas and Firewall are the eight multi-agency 
Border Enforcement Security Task Forces, or BESTs, arrayed 
along high-threat smuggling corridors along the Southwest 
border. Created to specifically address border violence, these 
BESTs concentrate on the top threats within their geographic 
areas, including weapons, bulk cash, narcotics, and alien 
smuggling. Since July of 2005, the BESTs have been responsible 
for more than 2,000 criminal arrests, the seizure of about 
170,000 pounds of narcotics, hundreds of weapons, and almost 
$23 million in U.S. currency.
    ICE is committed to stemming cross-border crime and 
associated violence through the deployment of the BESTs, 
Operation Armas Cruzadas, and Operation Firewall. Partnering 
with others, we are using a broad range of authorities, to 
disrupt and dismantle these networks.
    I thank the Subcommittee and Caucus members for your 
support and look forward to answering any questions you may 
have.
    [The prepared statement of Mr. Kibble appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Kibble.
    I would like to start with questions, and first I would 
like to ask you about firearms. ICE's program to address 
firearms smuggling has resulted in the seizure of 420 weapons 
and 42 convictions; ATF's Project Gunrunner has resulted in 382 
firearm-trafficking cases involving over a thousand defendants 
and approximately 12,800 guns.
    On the face of it, it sounds significant and dramatic. We 
will have testimony later from Professor Dresser from Mexico 
who tells us that an estimated 2,000 weapons cross the border 
into Mexico from the United States every single day. If that is 
true--and I would welcome any comments that you might have to 
suggest that there is another number we should use as a 
starting point--are we even making a dent in the firearms 
smuggling from the United States to Mexico? Mr. Hoover?
    Mr. Hoover. Firearms trafficking is a huge issue. There is 
no question about it. We currently work with the Mexican 
authorities and have asked them through training and education 
to initiate traces on all the firearms seized or recovered by 
them.
    Chairman Durbin. Can you give me a metric? I am looking for 
a metric. What do you think is the volume of weapons being 
smuggled into Mexico from the United States on a daily basis?
    Mr. Hoover. I would not say it is in the thousands, sir. I 
would say it is probably in the hundreds. I would not say it is 
in the thousands.
    I can tell you that over the last 2 years, in 2007 we 
traced 6,561 weapons from Mexico. In 2008, we traced 10,977 
firearms from Mexico. And to date this year, we are already 
approaching that 10,000 number for gun traces from Mexico.
    Chairman Durbin. This is clearly going to be an object of 
dispute. The Brookings Institution, and I quote, says ``some 
2,000 guns cross the U.S.-Mexico border from north to south 
every day, helping to fuel violence among drug cartels.''
    I think we would agree that whether it is hundreds or 
thousands, the best efforts that we put in to date are really 
not addressing the volume of the problem when it comes to 
weapons smuggling. We have to look to additional ways to 
fortify our efforts and make them more effective.
    I only have a few minutes, and I wanted to allow Attorney 
General Goddard to address one of the more fundamental issues 
here. At the base of this whole equation, this bloody, deadly 
equation, between the United States and Mexico is our virtually 
insatiable appetite for narcotics. You have been caught in the 
cross-fire of this for so many years as the leading law officer 
in Arizona. What are your thoughts about America's drug 
policies and drug laws?
    Mr. Goddard. Thank you, Chairman Durbin. My thoughts are 
that we are not winning the battle. The violence that we see in 
Mexico is fueled 65 to 70 percent by the trade in one drug--
marijuana. The interdictions that we have had and that the 
partnership that you see here at the table have seized 
extraordinary quantities of marijuana. And, still, the United 
States is being literally flooded with this particular drug.
    I have called for at least a rational discussion as to what 
our country can do to take the profit out of that one 
particular main horse, main force that fuels these violent 
cartels in Mexico.
    I also think, as the Wilson Institute has said, that we 
need to take a hard look at basically treatment on the 
addiction side. The United States has put a great deal of money 
into interdiction, but we have put very little into demand 
reduction. And, frankly, we can have a very profound effect as 
a country in trying to stop the apparently insatiable demand 
for these illegal drugs.
    We have one bright spot, and I think it needs to be 
commented upon. The flow of methamphetamines is down. That was, 
by consensus of law enforcement throughout the country, the No. 
1 crime problem in the United States. Among other things, the 
Mexican Government has taken very strong efforts to stop the 
precursor chemicals coming into their country and going to the 
so-called super labs in Mexico. They have also closed down a 
number of the super labs. So as a result, the flow of crystal 
methamphetamines into the United States is reduced.
    Now, we are not at the end of the story, obviously, but 
between the interdiction efforts at the border and the very 
strong effort on the production side by the Government of 
Mexico, we made a huge amount of progress. And I think that 
bright spot needs to be highlighted, because everything else we 
hear is extremely depressing.
    Chairman Durbin. My time is up, but I am going to try to 
ask everyone to hold to 5 minutes, but just to say that we are 
going to have future hearings related to America's policies 
when it comes to the arrest, criminal treatment, and medical 
treatment of those suffering from drug addictions. We have to 
really look at the source of this problem. It is our insatiable 
drug appetite, some 35 million users in the United States, that 
has created this problem and provides the money that is fueling 
these drug cartels and this violence. Thank you.
    Senator Graham?
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Placido, from an intelligence point of view, do you 
believe that the efforts of President Calderon are winning the 
day, or are we losing ground? How would you characterize the 
war?
    Mr. Placido. Thank you for that question, sir. I have been 
closely following Mexico since about 1985, and what I can tell 
you, in my view, the commitment and resolve of the Mexican 
Government is unprecedented under this administration. They are 
making great strides to improve the situation.
    It is a very difficult situation, and it will not be 
resolved overnight. Decades of problems related to corruption 
and the power and impunity of these cartels cannot be resolved 
overnight. But I believe this Government is making progress and 
that the violence we see is actually a signpost of success that 
these cartels are actually under a level of pressure that they 
have never seen before. It is one of the reasons they are 
lashing out against each other and the government.
    Senator Graham. In the area of pressure, Mr. Kibble and Mr. 
Hoover, how would your rate the level of corruption now versus 
last year in terms of pressure being applied to corrupt 
officials in Mexico? Mr. Hoover?
    Mr. Hoover. Sir, we have had several investigations 
involving law enforcement officers on both sides of the border 
involved in the firearms trafficking. But we have certainly--
they have been limited. I believe I mentioned that in my 
statement. They have been limited in that area. And we have not 
seen a significant increase in law enforcement officers being 
involved in the firearms trafficking.
    Senator Graham. Mr. Kibble.
    Mr. Kibble. I basically concur with Mr. Hoover, Ranking 
Member Graham. We have not noticed any trends going up or down. 
There is generally a steady state of corruption issues that we 
tend to see during the course of our investigations, and in my 
recent discussions with our special agents in charge along the 
Southwest border as recently as last week, they had indicated 
that they had not seen any trends worthy of note in terms of 
that.
    Senator Graham. OK. What is the single most--the drug 
consumption problem that Senator Durbin indicated is a problem, 
and that will not be solved overnight on our side of the 
border. But in the short term, what is the most single 
effective thing that Congress could do, in my opinion, to aid 
the Mexican Government in their fight? We will start with you, 
Mr. Kibble, and work our way down.
    Mr. Kibble. I think the critical--it is the recognition 
that we see increasingly throughout the country that part of 
what fuels this violence in Mexico are the flows of weapons and 
money south. And we have to do more in terms of interdicting 
that----
    Senator Graham. What change in the law would you recommend, 
if any, in terms of the gun problem?
    Mr. Kibble. Sir, I think that we have the laws we need. We 
just need to more effectively and more aggressively pursue 
them.
    Senator Graham. Do you need more agents?
    Mr. Kibble. With more resources, we could do more.
    Mr. Placido. Thank you. First of all, I believe that this 
Congress, this body, has gone a long way with the Merida 
Initiative to help provide the resources necessary for the 
Government of Mexico to take steps on its own. The initial 
phase of the Merida Initiative is really geared toward 
interdiction, and I think that in the long term, the most 
important thing that we can do is to help a willing partner 
south of our border reform its institutions.
    Senator Graham. So you do not suggest any major structural 
changes in our domestic law?
    Mr. Placido. Well, I think that the Merida Initiative 
provided resources to the Mexican and Central American 
countries, but there was no corresponding increase for the U.S. 
law enforcement agencies that have to partner with them.
    Senator Graham. Mr. Hoover?
    Mr. Hoover. I would agree with Mr. Placido. Any resource we 
can get to help us in this struggle is certainly welcome. We--
--
    Senator Graham. Well, my question is: Can you think of any 
gap in our law that we could remedy in the short term? What 
about you, Mr. Goddard?
    Mr. Goddard. Mr. Chairman, Senator Graham, I would 
certainly like to see stuff in our money transmission rules. 
Bulk cash can be intercepted with these agencies moving south, 
but wire transfer and stored value cards present overwhelming 
obstacles to us. Human trafficking in particular is 
facilitated----
    Senator Graham. Does everyone agree with that assessment?
    Mr. Kibble. Stored value cards have remained a consistent 
challenge because of their ability to avoid the CMIR 
regulations and not to declare the currency that they are 
transporting out. And we see that throughout more of our 
investigations where we are encountering this desire by our 
adversaries to rely on stored value cards.
    Senator Graham. Thank you, Mr. Chairman.
    Chairman Durbin. Senator Feinstein?
    Senator Feinstein. Thank you very much, Mr. Chairman.
    Mr. Placido, you mentioned that the Merida equipment has 
gone to Mexico. To the best of my knowledge, it has not. The 
appropriation was in the omnibus just passed, and we have 
contacted the State Department and have been told that the 
helicopters and surveillance aircraft will not be available 
until 2011.
    Now, I think this is something that we need to pay a lot of 
attention to and see if we cannot up this in the priority line. 
So I just wanted to mention that. This was of enormous concern 
to the Mexicans when they talked to me about this, and I would 
just like to commend President Calderon. I think he has put his 
entire political career on this effort to fight drugs, and I 
think he needs every single bit of our support.
    Mr. Attorney General, I want to thank you for your 
comments. You made a list of strategic things that we could do, 
and I want to ask you about them in a moment. But one of the 
things that really has impacted our country are kidnappings, 
and you mentioned 700 kidnappings in 2 years in the Phoenix 
area. Tell us a little bit more about that. Tell us what it 
means. Tell us a little bit about the insurance companies 
setting up for people to insure themselves against kidnappings 
and the impact that this is now having in my State as well, in 
the San Diego area, if you would.
    Mr. Goddard. Mr. Chairman, Senator Feinstein, I am not 
familiar with the insurance scandal that you just referred to. 
We have not seen that in Arizona, to my knowledge. What we have 
seen so far has been largely involving drug drop houses and 
human-smuggling drop houses, where the violent confrontation 
between members of rival gangs, rival drug-trafficking 
organizations, and human-smuggling operations basically seize 
the cargo, be it drugs or human beings, and change the price or 
extort the people that they have under their control to get 
more money from them. So human cargo or drug cargo are very 
valuable commodities, and they are apparently fungible. And so 
many of the kidnappings are as a result of this inter-gang, 
inter-cartel rivalry.
    We have been fortunate so far not to see, for example, 
business leaders or other people simply held as a target of 
opportunity in kidnappings. It has usually been within the 
criminal activities, but--so saying I am very concerned both at 
the possibility of innocent victims getting caught in the 
cross-fire, if you will. We have had at least one instance in 
Phoenix where there was a home invasion where they picked the 
wrong house, and they went after somebody who was totally 
uninvolved in either the human or the drug trade and assaulted 
that house with a number of rounds of high-velocity rounds. So 
we believe that the casual fallout is going to be significant 
if we cannot do something, as this Committee is considering, to 
try to assist Mexico in stopping it south of the border.
    Senator Feinstein. Thank you. I wanted to ask the law 
enforcement people about the Arms Export Control Act passed in 
1976, particularly Title 18 U.S.C. 922, and whether that--see, 
I am surprised at the small numbers of guns. Let me be candid. 
I think Senator Durbin is absolutely right. From what I hear, 
it is a lot more than just a few hundred. It really is in the 
thousands. And all these gun dealers that have sprung up in 
areas that allow these sales, the question is what to do about 
it. And I am curious if any of you have a recommendation as to 
how you could be given more authority to go in there and make 
these arrests of people and shut down the gun dealers that are 
knowingly selling guns in numbers--I mean, somebody comes in 
for one, 1 day, and then six in a week, and then another ten in 
another month. It ought to be pretty clear that they are 
transferring weapons.
    So what do you need to shut it down? Mr. Hoover?
    Mr. Hoover. Yes, ma'am. I would like to qualify what I 
stated earlier when Senator Durbin asked me about the numbers 
that flow daily across into Mexico. I am not sure where those 
institutes get their numbers. The investigations that we have 
and that we see for firearms flowing across the border do not 
show us individuals taking thousands of guns a day or at a time 
flowing into Mexico. And I was simply referring to the amount 
of weapons that we see these traffickers taking across the 
border.
    The FFLs that we work, we have to remember that these 
firearms are legally purchased in some instances. In some 
instances, they are not. And when we have information through 
our outreach with these Federal firearms licensees, the gun 
dealers, we certainly take quick action on surveilling those 
individuals and sharing information not just with my partners 
here at the table, but also with the officials in Mexico 
through our relationships with PGR and the various law 
enforcement agencies. And we provide that information as 
quickly as we can to those agencies to ensure we are acting on 
those folks that are taking the weapons across the border into 
Mexico.
    Senator Feinstein. Yes, but, clearly, it is not enough. I 
mean, they are all over Mexico.
    Mr. Hoover. Yes, ma'am.
    Senator Feinstein. When we are told that 90 percent of the 
weapons used by the cartels come from the United States, we 
need to shut it off.
    Mr. Kibble. Ma'am, I would just also add that, speaking 
specifically to the Arms Export Control Act, that historically 
has been a statute that has been more challenging to work with 
because of the willfulness element in terms of the licensing 
requirements for an exporter to obtain a license from the State 
Department for U.S. Munitions List items.
    But with the renewal of the PATRIOT Act in 2006, we gained 
smuggling goods from the U.S., 18 U.S.C. 554, which essentially 
was the converse of our inbound smuggling authority, which 
dramatically simplified and made more consistent the elements 
that we need to establish to show smuggling. And that has been 
a new authority that we have really based our Armas Cruzadas 
effort on to attack these weapons-smuggling networks.
    Just in the past couple months, we have elevated our 
operations along the Southwest border, and just in a couple 
months, with some additional resources applied to this problem, 
we have identified a number of issues.
    First off, we have interdicted more weapons than we have in 
entire previous fiscal years just in a 2-month period.
    Second, we found that there are a lot of intelligence gaps, 
because where as we do see this technique that is called ``ant 
trafficking'' in terms of the majority of the weapons are moved 
in amounts of one or two weapons concealed in vehicles and 
driven across the land border, we do not know near enough about 
what is happening in the air domain, in our containerized 
shipments. And these are all areas where as we apply more 
resources to the problem, we will get a better picture of some 
of the vulnerabilities and be able to better allocate resources 
to mitigate those particular vulnerabilities.
    Senator Feinstein. Thank you. My time is up.
    Thank you, Mr. Chairman.
    Chairman Durbin. Senator Grassley?
    Senator Grassley. Mr. Chairman, I would like to put an 
article in the record relating to my questioning.
    Senator Specter. Mr. Chairman, what happened to the early 
bird rule?
    Chairman Durbin. Excuse me just a second.
    I am trying to establish the appropriate protocol here 
because we have several Ranking Members. Senator Grassley is 
the Ranking Member on the Senate Caucus on International 
Narcotics Control. We could flip a coin or whatever you would 
like.
    Senator Grassley. I could come back at 12:10, but I have 
got to be at a place at 11:57.
    Chairman Durbin. What would you like to do, Senator 
Specter, as Ranking Member of the full Committee?
    Senator Specter. I will decide that the next time I am 
chairing the hearing.
    [Laughter.]
    Senator Specter. But I recollect being Ranking or something 
like that myself.
    Chairman Durbin. Well, in my defense, I am going to plead 
that your Republican staff gave us the order, and I recognized 
Senator Grassley.
    Senator Grassley. I did ask permission to put this in the 
record.
    Chairman Durbin. Without objection.
    Senator Grassley. I have been hearing about the need to 
reform law enforcement authority to investigate under Title 21. 
Currently, DEA and FBI have authority to investigate under 
Title 21 along with a limited number of ICE agents. ICE agents 
are cross-designated to conduct investigations under 
supervision of DEA. A 1994 MOU between then-Customs Service and 
DEA limits the number of cross-designations. Further, I 
understand that efforts initiated in 2004 to update this MOU 
failed.
    Mr. Kibble, if an ICE agent who is not cross-designated 
encounters narcotics in the course of another investigation 
within ICE's jurisdiction, what happens?
    Mr. Kibble. Sir, he would either need to reach out to a 
cross-designated ICE agent that could respond to the scene to 
handle the ensuing investigation or a DEA agent.
    Senator Grassley. In other words, that ICE agent could not 
make that arrest if they encountered----
    Mr. Kibble. No, sir. Not under Title 21 authority, no, sir.
    Senator Grassley. OK. Mr. Placido, how many ICE special 
agents have cross-designation authority? And how do they 
coordinate their investigations with the DEA?
    Mr. Placido. Thank you for the question, Senator. There are 
currently 1,263 ICE agents who are cross-designated, and to my 
knowledge, we have never put an upper limit. That represents 
about 19 percent of Immigration and Customs Enforcement special 
agents who are cross-designated. And I do not believe that the 
discussion, spirited as it may have been over time, really 
revolves around whether ICE should have Title 21 or not. It 
really revolves around the question of coordinating those 
investigations, the investigations that I cited for you--
Project Reckoning and Operation Accelerator--being excellent 
examples.
    If we put more agents working counter-drug work and they do 
not coordinate through this SOD process, we could actually have 
the unintended consequence of putting more resources and having 
less results.
    Senator Grassley. How do they coordinate? is my question.
    Mr. Placido. Senator, frankly, we do not believe that we 
have the full measure of coordination within this SOD process 
that would include participation at the OCDETF Fusion Center, 
coordinating some of the bits of information we use to connect 
these seemingly disparate investigations, our communications 
devices, information that comes from financial investigations, 
and that has occasionally been a source of problems.
    Senator Grassley. OK. Let us go back to Mr. Kibble. Who 
determines which agency will investigate drug crime with a 
border or port of entry nexus?
    Mr. Kibble. Well, currently, sir, we are governed by the 
MOU that you acknowledged was written in 1994 for seizures 
involving the port of entry. Cross-designated ICE agents can 
handle those investigations and also investigations involving 
smuggling, a border nexus, that are initiated by the agency.
    Senator Grassley. Mr. Placido, has ICE asked for permission 
from DEA for additional personnel to have this special 
authority? If so, what is the status of that request?
    Mr. Placido. Again, to my knowledge, Senator, we have never 
turned down requests for cross-designation. There is no upper 
limit on the numbers. The issue with DEA has always been not 
whether they have the authority, but how they would exercise it 
and under what conditions in terms of coordination.
    Mr. Kibble. If I could speak more broadly, Senator, to the 
issue, I think Tony hits on the exact question, because 
coordination has got to be key. We have got to figure out 
ways--we have always got to be working toward more effectively 
coordinating our efforts. But that extends beyond the Title 21 
community. We are seeing these threats converge in cross-border 
criminal networks. So we have got to use mechanisms such as 
Fusion Centers, such as the Regional Deconfliction Centers that 
have proliferated throughout the country, and also new 
technological innovations such as DOJ's NDEXs or DHS' Law 
Enforcement Information Sharing Service.
    When we get that aside, then it comes to why not leverage 
5,000 additional agents, you know, with that authority. Just to 
kind of clarify what Tony made, there are pending requests, 
but, really, we have always been told that we are capped at 
1,475 positions.
    Senator Grassley. Let me answer the question. I think 
common sense dictates that it would be better to have more 
investigators looking for illegal drugs than not having more 
investigators looking at illegal drugs.
    Mr. Kibble. I would comment in this way: There are some 
efficiencies that are gained across the U.S. Government when we 
can deal with the full spectrum of cross-border crime. For 
example, those teams that we have added to deal with weapons 
and cash--or primarily focused on weapons for Armas Cruzadas 
along the Southwest border--are also seizing millions of 
dollars in outbound currency, and they are also generating 
cooperating defendants that are providing information with 
respect to Title 21 matters.
    So there are efficiencies that are gained when an ICE 
investigator, responding at a particular event, can deal with 
the full spectrum of crime that is in front of him.
    Senator Grassley. Well, let me ask you if you have 
considered raising the number of agents that can be cross-
designated. And if you have not, why not?
    Mr. Placido. As I have said, Senator, to my knowledge, 
there is no upper limit on the numbers of ICE agents that can 
be cross-designated, but if I may give you a practical example 
of what I am talking about. This year alone, the Drug 
Enforcement Administration will spend more than $56 million in 
taxpayer money to conduct court-authorized Title 3s or 
telecommunications intercepts. We do that in a way that is 
coordinated with most of our Federal partners because somebody 
taking even well-intentioned action that is uncoordinated can 
cause those month-long investigations, the defendants to drop 
cell phones, defendants who they were planning to arrest to 
become fugitives and to leave.
    And so our issue is not whether we could use more people to 
help us prosecute the efforts against drug traffickers. It is 
that those folks need to be working within a system that has 
been designed and crafted carefully over two decades and works 
very, very effectively.
    In fact, we see our partners at the FBI now moving their 
international organized crime center, which deals with non-
drug-related organized crime, into the construct of Special 
Operations Division and the OCDETF Fusion Center for this very 
purpose.
    Chairman Durbin. Thank you very much.
    I will now recognize Senator Feingold, and then, in an 
attempt to rescue my career on the Senate Judiciary Committee, 
Senator Specter. Senator Feingold.
    Senator Feingold. I will support that and thank you. I do 
want to thank Senators Durbin and Feinstein for calling this 
hearing to discuss this urgent national security matter. I 
thank the witnesses for being here.
    First, I want to note how pleased I am that we are finally 
starting to provide State and local law enforcement with the 
funding that it needs to keep us safe. This much-needed support 
was simply not provided during the previous administration, and 
for the past several years, when I have met with law 
enforcement personnel everywhere in my State, the conversation 
has always been about the severe lack of funding and the 
resulting rising crime rates and job losses and lack of 
innovation.
    Of course, another issue that I am hearing more and more 
about is the prevalence of Mexican-produced drugs in my State. 
The DEA recently released its 2008 report including specifics 
about the drug situation in Wisconsin. According to the report, 
Mexican drug-trafficking organizations are responsible for most 
of the cocaine, crack, and marijuana that is available in 
Wisconsin, and they also bring methamphetamines into the State. 
And although Wisconsin does not contain a major hub city for 
Mexican drug traffickers, it is located with Chicago to its 
south and Minneapolis to its west, and this makes cities in 
Wisconsin easy secondary destinations for large amounts of 
drugs.
    While the effects of the problem are being seen by State 
and local law enforcement across the country, at its core this 
is an issue, of course, about our border with Mexico. This 
problem, as we have heard today, has taken on an increasingly 
troubling dimension as the violence in Mexico and along the 
border has exploded over the last 2 years, and this has had 
devastating consequences for Mexican law enforcement, military 
personnel, and, as you have said, innocent bystanders.
    We must address this crisis in a proactive and coordinated 
manner focusing on improving law enforcement while also 
supporting efforts to enhance the rule of law in Mexico. So the 
hearing today is very important to move this forward.
    Mr. Kibble and Mr. Hoover, I was deeply troubled to learn 
that the vast majority of weapons used by drug cartels in 
Mexico come from the United States and that the Mexican cartels 
are increasingly smuggling military equipment that cannot be 
legally sold to civilians in either country. Could you please 
describe the primary source of such weapons and what efforts 
are underway to enhance our ability to prevent these weapons 
from entering the civilian sector? Mr. Hoover.
    Mr. Hoover. As far as military firearms, sir, we have had 
fewer than, I believe, a dozen traces that go back to military 
firearms. Now, we have had some United States--originated 
military instruments such as grenades that have ended up with 
the cartels, and I would like to speak to you in another 
hearing or another matter about that. But I cannot go further 
into that as we are in this session.
    Senator Feingold. We will do that later.
    Mr. Hoover. Yes, sir.
    Senator Feingold. Mr. Kibble.
    Mr. Kibble. Sir, this is more anecdotal, but we do have 
some investigations that have indicated that those weapons may 
be diverted from other regions and not necessarily coming 
directly from the U.S. And that is, again, something that we 
could discuss in greater detail in another forum.
    Senator Feingold. I look forward to doing that.
    Mr. Placido, are you coordinating your efforts to train 
Mexican law enforcement personnel with USAID's judicial reform 
efforts?
    Mr. Placido. Within the embassy, there is a law enforcement 
country team that does include USAID, and I know that under the 
Merida Initiative, there is that coordination. Most of the 
training that DEA is directly involved in involves our vetted 
units that we work with in Mexico. That portion of the training 
is not really closely affiliated with the USAID effort. They 
tend to be focused on the judicial reform piece with the 
judges, prosecutors, and the institutions that they represent, 
sir.
    Senator Feingold. Could you also comment on the State 
Department's Merida Initiative? Which aspects of this 
initiative have been the most effective and where is there some 
room for improvement?
    Mr. Placido. Well, I think as Senator Feinstein mentioned, 
there certainly is a delay in some of the big-ticket items, 
like helicopters and vessels and planes that are--frankly, they 
require a protracted process for approval here in the United 
States, and then once they are approved in terms of an 
exchange, these are not the kinds of items that are sitting on 
the shelf and they purchase one and send it down. So there has 
been a lag in the delivery of some of the big-ticket items that 
will be important in helping the Mexican Government facilitate 
its important work.
    I think the area that we have been most successful in, 
frankly, has been in the soft side, exchanging intelligence 
information and collaborating with one another to identify key 
vulnerabilities in this trade and to immobilize the command-
and-control elements of the organizations that foment so much 
of this violence.
    Senator Feingold. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Senator Specter.
    Senator Specter. The facts about what is going on in Mexico 
are staggering, posing an enormous threat to the United States. 
When we listen to the testimony and follow the press, we see 
that it is anarchy down there. When you have a police chief in 
Juarez who is forced out of office because they are killing his 
deputies, how much closer can you come to total breakdown of 
law and order?
    When you see how much drugs are coming into this country 
from Mexico, threatening our young people and older people 
alike, I think we just have to do a lot more about it. And the 
agencies here have an enormous responsibility, which is not 
being fulfilled. If your resources are insufficient, you ought 
to be raising hell and bringing those demands to this 
Committee.
    I have made two trips to Mexico, in August of 2005 and also 
in August of 2008. I had been there before, but I went 
especially to talk to the narcotics officials. And they 
emphasized to me that the United States is a major cause of the 
problem on smuggling, weapons smuggling. And that is something 
that is our responsibility that we ought to do something about.
    The kind of funds which have been allocated to Mexico are 
small compared to what we spend in other places, looking at 
$400 million last year. Looking at what was done in Colombia, 
the United States had an investment of something like $4.5 
billion. Colombia had a problem, which was awful, but I do not 
think any worse than Mexico. The drug cartels shot up the 
Supreme Court in the early 1980's. When I traveled to Colombia, 
I would go in in the morning and leave before sunset, because 
U.S. citizens were being kidnapped. A million dollars was a 
cheap price tag. So there is really a great deal more that 
needs to be done.
    We are going to have the confirmation hearing of the new 
so-called drug czar, the Seattle Chief of Police, Gil 
Kerlikowske, and that will give this Committee an opportunity 
to really dig in and do something more. I hear people planning 
trips to Mexico, American citizens, and am wondering if they 
really ought to go.
    Governor Goddard, how serious is the problem for your 
citizens in a neighboring State?
    Mr. Goddard. Mr. Chairman, Senator Specter, I appreciate 
the promotion; I am the Attorney General. But my thanks, sir.
    Senator Specter. Attorney General. You are just one step 
away.
    [Laughter.]
    Mr. Goddard. Aspiring perhaps, but not there.
    Senator Specter. I may have understated the case by not 
calling you ``Senator,'' or maybe that would have been less 
complimentary than ``Governor.'' It is kind of hard to figure 
that out.
    Mr. Goddard. It would have been highly complementary, 
Senator. But we are facing a very serious issue. One of our 
universities basically for spring break said that they did not 
advise their students to go into Mexico.
    Senator Specter. How much are your citizens threatened, if 
at all, by what is going on in Mexico?
    Mr. Goddard. Mr. Chairman, Senator Specter, I believe they 
are increasingly threatened. Right now, the kind of----
    Senator Specter. Never mind ``increasingly.'' Are they 
threatened?
    Mr. Goddard. Yes, sir, through kidnappings, through violent 
confrontations between drug dealers and human smugglers. Yes, 
we are threatened.
    Senator Specter. Let me turn to Mr. Hoover and Mr. Placido 
and Mr. Kibble. You men have direct responsibilities on the 
smuggling issue. What kind of resources do you need to stop the 
smuggling? We talk about illegal immigrants coming in from 
Mexico. It is a lot more serious if illegal weapons are going 
into Mexico.
    Well, my time is up, and I am not going to exceed it. But I 
would like an answer in writing from each of you, or maybe from 
your Directors, as to what you need to solve the smuggling 
problem. My conversations with the Mexican officials tell me 
that they think that weopons smuggling is a tremendous part of 
the problem. They would also like to see us cut down on our 
demand side so that it would not encourage people to smuggle 
drugs into the United States. But on the gun smuggling, that is 
right at our doorstep.
    That concludes my questioning.
    Chairman Durbin. Thank you.
    Senator Klobuchar.

STATEMENT OF HON. AMY KLOBUCHAR, A U.S. SENATOR FROM THE STATE 
                          OF MINNESOTA

    Senator Klobuchar. Thank you very much, Senator Durbin, for 
holding this hearing. I also wanted to thank my colleague 
Senator Kaufman for allowing me to go next.
    I want to thank you for all the good work you are doing. I 
am a former prosecutor. I know how difficult this can be. And I 
wanted to also say, as Senator Feingold mentioned, we are 
seeing this in the Midwest as well. We have just seen in 
Minnesota just last month Federal law enforcement officials 
arrested 27 individuals in Minneapolis and St. Paul with ties 
to Mexico's powerful Sinaloa cartel. So this is not just in 
Arizona, as bad as it is. It is across the United States.
    One of the things that I have been reading about, Mr. 
Placido, is just that there are reports that these major 
cartels that used to be fighting each other are now potentially 
joining forces in alliance, which makes it even harder to take 
them on. Is there any truth to that?
    Mr. Placido. Well, thank you for the question. We have 
heard at various times over the last 2 years discussions about 
alliances and partnerships among and between rival cartels. 
They have never held and they have fallen apart in the past, 
and what we see is you could actually group the violence in 
Mexico into three broad categories: intra-cartel violence, 
where members of the same criminal enterprise are fighting one 
another, and we see a great deal of that within the Sinaloa 
cartel as Beltran Leyva has broken away from ``El Chapo'' 
Guzman, and Guzman and Ismael Zambada Garcia; we see inter-
cartel violence where rival cartels fight each other; and 
violence between the cartels and the government itself.
    One of the things that we have been very pleased about is 
in our discussions with the Government of Mexico. They 
appreciate the fact that it is necessary to systematically 
attack all of the cartels at the same time so that we do not 
have the unintended consequence of creating a super cartel that 
does not have to compete with others. We think that that is 
going to be an important milestone as we advance on the Merida 
Initiative to make sure that the power and influence of these 
criminal organizations are decreased at similar levels. So far, 
we see that happening.
    Senator Klobuchar. OK. Very good. Also, we have had some 
discussions about the corruption and what that means, and I 
believe, if we are really going to make this work and help 
President Calderon, who has taken such admirable steps, that we 
need to have a strong judicial system in Mexico that is not 
corrupt.
    Attorney General Goddard, do you want to comment on how we 
are going to get there and any ideas you have for that?
    Mr. Goddard. Thank you, Mr. Chairman, Senator Klobuchar. I 
am pleased to do that because our group of Western Attorneys 
General is part of, a very small part down at the bottom of the 
Merida Initiative, trying to provide some training to the 
Mexican state officials who are changing the way they do 
criminal justice. They are going to a confrontation style much 
more similar to ours in terms of courtroom procedure. And I 
think that is a very exciting change and will have a much 
greater----
    Senator Klobuchar. What did they have before if they did 
not have--maybe I am just too used to confrontation style.
    Mr. Goddard. They do not have jury trials. They have 
criminal trials based before a judge, without witnesses, 
entirely based on sworn deposition testimony. So it is a paper 
trial, and, unfortunately, that I believe has had--I do not 
want to be critical of a different system of jurisdiction, but, 
nonetheless, it has tended to be nontransparent, it has tended 
to be fairly slow to convict some of the criminals that come 
before the bar. And I think the change is something that would 
be very positive.
    There also have been some very significant efforts to help, 
let us say, professionalize the police force throughout Mexico. 
Literally thousands of officers have been discharged because of 
their connections with the drug cartels. And I think, as has 
been said by many of the panelists here, the efforts by the 
Calderon administration to basically fight on every front 
against the threat that they are facing is extraordinary and 
commendable.
    Senator Klobuchar. So, in other words, when they do it just 
on paper, it could lend itself to more corruption because it is 
not transparent, there are not hearings in public?
    Mr. Goddard. Senator, that is certainly my belief.
    Senator Klobuchar. OK. Very good. And the last question 
just quickly, the banking. You raised that, Attorney General 
Goddard. To get to the proceeds, to get to the money, which you 
all talked about, we are going to have to be able to follow 
those monies. As we used to say in our office, ``Follow the 
money and you find the bad guys.'' So could you talk about how 
that cooperation is going?
    Mr. Goddard. In light of the discussion, Senator, it could 
be certainly better. For a long time, we have been the only 
agency--Federal, State, or local--that has done the money 
transfer prosecutions in connection with human smuggling.
    Now, the drug transfers are very different, and they 
largely involve bulk cash. Human smuggling involves electronic 
transfer. And as I said in my testimony, we could use a lot of 
help in terms of interagency coordination, in terms of 
interstate coordination. We definitely believe all the border 
States ought to be involved in both Mexico and the United 
States. And locating the money transmitters--we believe we know 
where they are, just based on the data. But our data now is 3 
years old. Nothing from the wire transmitters has come into our 
hands since then. We have gotten pretty good at being able to 
identify those particular transmitting agents who are corrupt.
    Senator Klobuchar. OK. Thank you very much.
    Mr. Kibble. I would----
    Chairman Durbin. Thank you very much--oh, I am sorry. Go 
ahead.
    Mr. Kibble. I would just add that, speaking more broadly 
about money laundering, and bilateral money-laundering efforts 
in particular, the collaboration has never been better with the 
Mexicans, whether it be bulk cash smuggling, whether it be 
trade-based money laundering, such as a black market peso 
exchange. We have run parallel electronic intercept operations, 
and we exchange information real time. It has never been 
better.
    Senator Klobuchar. Thank you very much.
    Chairman Durbin. Before recognizing Senator Sessions, 
Senator Feinstein has asked for our indulgence to clarify the 
record.
    Senator Feinstein. If I may, on the funding of Merida, as I 
understand it, the first funding of Merida was in last year's 
emergency supplemental. The omnibus that we just passed added 
$300 million of funding. I think you are correct, Mr. Placido, 
that it is the big equipment, it is the helicopters and the 
surveillance equipment which they need, and need long before 
2011, when they are slated to get it.
    Thank you very much, Mr. Chairman.
    Chairman Durbin. Senator Sessions.
    Senator Sessions. Thank you.
    On the question of guns, isn't it true, Mr. Hoover, that 
most of the gun dealers operating illegally, you do undercover 
operations and other things if you think they are illegal, and 
their guns can be bought or stolen, and those tend to be the 
guns that are probably shipped into Mexico? It is not like 
there are one or two gun dealers selling guns by the hundreds 
to bad people, is it?
    Mr. Hoover. If we uncover FFLs doing that, we would revoke 
them and prosecute them. I can tell you that ATF in calendar 
year 2008 conducted over 11,000 inspections of Federal firearms 
licensees and found that less than 1 percent needed to have 
their licenses----
    Senator Sessions. Well, yes, and it is just--we have got a 
constitutional right to keep and bear arms, and Mexico does 
not. And so it is really not an answer to this problem that the 
United States is going to stop providing its citizens with 
guns. That is just not going to happen.
    Can a non-citizen buy a gun in the United States?
    Mr. Hoover. Under certain circumstances, yes, sir. An alien 
can purchase a firearm with proper identification. He can have 
a----
    Senator Sessions. What about if they are illegally here?
    Mr. Hoover. No, sir, not illegally.
    Senator Sessions. So if a person is using false 
identification or something, that is a Federal crime?
    Mr. Hoover. That is, sir.
    Senator Sessions. Wouldn't that be a good way to help 
Mexico, identify people who are here illegally, that are buying 
guns and are receiving and transporting them illegally?
    Mr. Hoover. Absolutely.
    Senator Sessions. That would be a Federal offense already. 
Well, I think we could look for other things we could do to 
help, but to me, that is not the problem. We have got a lot of 
guns on our side of the fence, and people can go and buy them 
whenever they want to. But we do not have the murder rate that 
Mexico now has. The problem with the murder rate in Mexico, I 
think, as some of you have indicated, is the President is 
stepping up; he is taking on these cartels. It is causing 
violence, and if he will see this through, like President Uribe 
has done in Colombia, I believe he is going to be successful. 
And he needs to be successful not for the United States but for 
the people of Mexico. He cannot allow organized criminal 
elements to use violence, intimidation, and murder to operate 
in his country and be a safe, decent place that the good people 
of Mexico would like it to be. So I respect what he is doing. I 
appreciate that.
    I would note that we had dramatic decreases in violence 
along the area of the border in San Diego where a fence was 
placed. We still have not completed all the fencing. I see 
recently in the Arizona Star Sunday, Border Patrol Station 
Chief Alan White said, ``These fences are absolutely necessary. 
I can't look you in the eye and tell you I am doing a good job 
without these barriers.'' So I think we need to complete what 
the Congress has passed, and I hope this administration will do 
so.
    Now, let me get to the thing I would like to say. It 
strikes me as a prosecutor--and Attorney General Goddard is--
you talk about the joint operations that have been successful. 
That is my idea of what works. It seems to me--Mr. Placido, you 
are an intel guy. It seems to me that these organizations in 
Mexico have tentacles that reach all into the United States, 
and it is those tentacles that collect the money and funnel it 
back that builds their power. Is that correct, fundamentally?
    Mr. Placido. Yes, sir.
    Senator Sessions. And isn't one of the best ways we can 
help Mexico is to identify through intelligence, through task 
forces, and that sort of thing, and target these organizations 
that are collecting the money in the United States and 
prosecute them aggressively? Wouldn't that be a very good way 
to weaken the cartels in Mexico?
    Mr. Placido. It is, and it is, in fact, what we are doing, 
sir. If you look at Operation Accelerator that recently came 
down, a joint Interagency-OCDETF investigation led by DEA 
results in over 750 arrests of people, predominantly in the 
United States, affiliated with the Sinaloa cartel. Prior to 
that, Project Reckoning that targeted the Gulf cartel in Mexico 
resulted in similar numbers of arrests, as well as seizures in 
aggregate between both operations of over $130 million in cash 
that fuels that violence. So, yes, sir, we agree.
    Senator Sessions. So that is a continual flow of American 
wealth that strengthened these illegal cartels.
    Mr. Attorney General, what do you think about that? You see 
it from a border State's perspective, and you talked about some 
of these effective joints operations.
    Mr. Goddard. Thank you, Mr. Chairman, Senator Sessions. The 
only way we have been successful has been through joint 
operations with local police forces and sheriffs and through 
the Federal agencies that are here at this table and a number 
of others--Border Patrol, FBI, Park Service. There is truly an 
extraordinary number of different Federal resources that are 
necessary to deal with this problem.
    I would simply point out that the cartels are dealing in 
four things for sure: human beings, drugs, arms, and cash. And 
here at the table we have different agencies that deal with 
arms, that deal with drugs, that deal with human beings. 
Somewhere else the cash people, I suppose, are sequestered. The 
only way we are going to be successful is to truly mount a 
comprehensive attack upon the cartels. They are doing a 
comprehensive attack on us through all four of these different 
criminal activities.
    I am afraid in this country we tend to segregate by 
specialty the various areas that we are going to prosecute, and 
our experience on the border is we cannot do that. We have got 
to cross the jurisdictional lines, or we are going to fail.
    Senator Sessions. That I could not agree more, Mr. 
Chairman. Thank you, Attorney General.
    Chairman Durbin. Thank you, Senator Sessions.
    Senator Kaufman.
    Senator Kaufman. Thank you, Mr. Chairman, and thank you Co-
Chairman Senator Feinstein. I think this is a great idea. 
Clearly, the hearing already has helped me understand what has 
gone on, and I think that this Subcommittee on Crime and Drugs 
has a very ambitious schedule, and I think it will be a good 
one. And I am look forward to participating.
    Attorney General Goddard, I think you are quite compelling 
on wire transfers. What could this Committee do, what could the 
Congress do, what could the Federal Government do to help you 
as an Attorney General deal with these problems or make it 
easier for you to catch these folks?
    Mr. Goddard. Thank you, Mr. Chairman, Senator Kaufman. I 
think the first thing is data. We need to know the volume. We 
can discriminate within the billions of dollars of wire 
transfers back and forth across the border those that are most 
characteristic of criminal activity. But we have to have the 
data first, and that is what we have had, comprehensive and 
systematic efforts to avoid providing that information.
    I think it is going to take a certain amount of Federal 
authority to make sure that it happens. I think we have to 
change some of the definitions. We have talked about stored 
value cards. It is a huge loophole that I think is already 
blowing a hole in our money-laundering prevention ability, and 
we need to step up that. And we have, I think, too high a 
threshold for individual daily amounts of financial 
transactions, especially by electronic transfer, that result in 
a reported incident. It is $10,000 today. I am not going to get 
in the way of the legislators in terms of where it should be, 
but I would submit it should be much lower than it is today.
    Senator Kaufman. Thank you.
    Representatives of the Federal agencies, I do not know how 
you do this. I mean, with corruption as rampant as it is in 
Mexico in the law enforcement community--at least, that is my 
understanding--does the local law enforcement, even President 
Calderon, have the ability to investigate and catch drug 
cartels with the amazing of corruption that is going on? Mr. 
Placido?
    Mr. Placido. Yes, sir. Thank you for the question, Senator. 
Again, as someone who has followed Mexico closely, I have to 
tell you, I have been deeply impressed with the level of 
commitment to not only fighting the cartels, but to cleaning up 
corruption in Mexico by this administration. I think it was 
mentioned here earlier by the Chairman, but effectively the 
deputy attorney General of PGR of Mexico's attorney general 
office, was arrested and is being prosecuted in Mexico. That is 
not at the insistence of the U.S. Government. That is because 
the government in Mexico, President Calderon, is committed to 
cleaning it up.
    I do not want to minimize how difficult it will be. He has 
a large challenge in front of him. But we see them absolutely 
committed, and they have been collaborating not only with DEA 
but with the U.S. Department of Justice on a project that I 
guess translates to ``Operation Clean-up'' to comprehensively 
address corruption, not only in the attorney general's office 
but in the secretariat of public security and in the military, 
and they have arrested senior-level officials in all three of 
those organizations.
    Their commitment, in my view, is absolutely unparalleled in 
the time that I have been watching this situation.
    Senator Kaufman. Mr. Kibble and Mr. Hoover, is that pretty 
much your feeling?
    Mr. Placido, I understand there is an effort in this line 
to create kind of a national police force with even kind of an 
anti-drug division similar to DEA. What do you think? Is this 
something that is realistic? Can it work? How do you feel about 
it?
    Mr. Placido. Senator, in the past in Mexico, there have 
been any number of attempts to reorganize changing the names 
and the identities of the organizations involved. And while it 
may, in fact, be beneficial for them to create the so-called 
Cuerpo Policia Federal, or the Federal Police force, that will 
not be the solution. The solution is what they are doing right 
now, the hard work of eliminating corruption and building 
organizations that are credible and competent. And may I say, 
there are in those organizations today many courageous and 
heroic people who are laboring at great personal risk to help 
Mexico and, by extension, help the United States.
    Senator Kaufman. Thank you.
    Mr. Hoover, just to kind of clarify the record, are guns 
being shipped from the United States into Mexico part of the 
problem?
    Mr. Hoover. Shipped into Mexico, they would be trafficked 
illegally, yes, sir, that would definitely be part of the 
problem.
    Senator Kaufman. I just want to make sure that we all 
understand. This is a key part of the problem, guns that come 
from the United States into Mexico.
    Mr. Hoover. Yes, sir. As indicated previously by both 
Senator Durbin and Senator Feinstein, 90 percent of the weapons 
that we traced that the Mexicans recover are source state here 
in the United States.
    Senator Kaufman. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Kaufman.
    Senator Wyden.
    Senator Wyden. Thank you, Mr. Chairman. I want to commend 
you, Mr. Chairman, and also Senator Feinstein. I know both of 
you have a longstanding interest in this, and I think it is an 
extremely important hearing, and I want to commend my 
colleagues for getting into it.
    Attorney General Goddard, a question for you, and I am 
going to spare, I think, you other three, at least from my 
initial round, because the Attorney General has been working in 
an area that Oregon law enforcement officials are particularly 
interested in, and that is, this matter of Article 4 
prosecutions.
    Article 4 prosecutions allow U.S. authorities to pursue 
Mexican nationals who have committed a crime--a crime in Oregon 
or California or Illinois--and then flee to Mexico. And in our 
State, law enforcement officials are dealing with a case 
exactly like this right now.
    There has been an allegation of a double murder. The 
accused is a Mexican national who was charged with killing his 
cousin and niece in January in Polk County and has fled to 
Mexico. And Oregon law enforcement officials would like to see 
this individual prosecuted.
    So could you tell us your experience, Attorney General 
Goddard, with Article 4 prosecutions?
    Mr. Goddard. Thank you, Mr. Chairman, Senator Wyden. I 
certainly would be happy to. I believe Article 4 is one of the 
important tools in the arsenal. In Arizona, we have used the 
process on many occasions while I have been Attorney General, 
and it goes back way before then.
    It is complicated, and it requires a certain amount of 
specialized knowledge. We have in Arizona specialized 
prosecutors and investigators who understand the process that 
is required by Article 4. It is very different from our method 
of criminal trial. But it does provide the opportunity in the 
case that you have given--and we have several similar in 
Arizona--where we know who the suspect is, to be able to bring 
it to the attention of the Mexican authorities and have them 
tried and, if convicted, serve their sentence in Mexico.
    Senator Wyden. Let us talk about ways to make it simpler, 
because I think you have put your finger on it, that this is a 
useful tool, but at present it is just too complicated as it is 
presently constituted.
    Would it be helpful, in your judgment, to have the Justice 
Department, the U.S. Justice Department, involved in these 
cases? The Justice Department, as the program is now set up, is 
not involved.
    Mr. Goddard. Mr. Chairman, Senator Wyden, I am cautious of 
that. As a State Attorney General, we like to do things 
ourselves. But you put your finger on an important disparity. 
Article 4s are handled by the Justice Department in Mexico, by 
the PGR. And so we have sort of the anomalous situation of 
States dealing with a Federal agency. I think it has worked 
pretty well, but it probably could be improved, both in terms 
of understanding of the process and making it simply more 
available to prosecutors throughout our country.
    Senator Wyden. Because my sense is, talking to local law 
enforcement officials, they certainly do not want the Federal 
Government to come on in and dictate to them various things 
with respect to these prosecutions. But they do like the idea 
of some help with coordinating the way these cases are brought. 
There may be instances where some training and specialized 
assistance is necessary. I gather that those kinds of things 
you would see as useful.
    Mr. Goddard. Mr. Chairman, Senator Wyden, absolutely. I 
think anything that could raise the bar in this kind of joint 
prosecution effort and in the new area that we are just 
beginning to look at now, which is using Article 4 not just 
where we have a carefully identified suspect, which is the way 
it is done today, but to actually collaborate with Mexican 
authorities in the investigation of crime so that when we have 
a suspect but we do not know who they are, we could open an 
investigative file on both sides of the border using Article 4, 
and thereby I think significantly increase our ability to cross 
the border with law enforcement efforts.
    Senator Wyden. So if you are me, and you are drafting 
legislation because your local law enforcement officials want 
to get more mileage out of Article 4, what else would you 
consider putting in other than the issues we are talking about 
with respect to the Justice Department?
    Mr. Goddard. Mr. Chairman, Senator Wyden, I would be happy 
to work on that with some of our Article 4 folks in Arizona. I 
believe training, funding, and the enhancement of 
investigations jointly on both sides of the border are 
tremendously helpful. Certainly, Justice Department active 
involvement could be very helpful in coordinating what right 
now is an extremely diverse and, I would say, fractured effort 
to----
    Senator Wyden. We will follow up with you, and just so I am 
clear, this is something that you consider a useful tool, you 
would like to make more use of it in the future. Looking at 
ways to make it simpler and to expedite it would be helpful, 
I----
    Mr. Goddard. Senator, absolutely.
    Senator Wyden. OK. Thank you, Mr. Chairman. Then Senator 
Feinstein.
    Chairman Durbin. Thank you, Senator Wyden.
    I want to thank the entire panel and just note for the 
record that we had ten members of this Committee come to ask 
questions, which is extraordinary for a Subcommittee meeting 
and I think reflects the gravity of the issue that we are 
considering. Thanks to each of you for your testimony.
    I would like to thank the Attorney General of Arizona 
especially for coming. I think you have really issued a 
challenge to this Committee. We acknowledge your statement that 
we are dealing with the organized criminal threat from these 
Mexican drug cartels in the United States today, and this will 
not be the last of the hearings on the subject. There will be 
more, and I am going to invite Senator Feinstein, as often as 
she would like to, to participate with members of her panel as 
well.
    My frustration from time to time with these Subcommittee 
hearings, for those who are watching, those who are testifying, 
is you wonder: Now what is going to happen? What is next? I 
think you have given us three practical, specific ideas that we 
are going to look into. There may be more ideas that have come 
out of this testimony. But certainly one would be to expand the 
High Intensity Drug Trafficking Areas to include weapons and 
human trafficking; second, to lower the $10,000 reporting 
threshold for these fund transfers; and third, to expand our 
efforts when it comes to stored value cards so that they can be 
read by law enforcement and we can appreciate how much money is 
being transferred at any given time. Those are three issues 
that I wrote down quickly. As we review the record, there may 
be more, but we would like to work with you on that.
    The last point I would like to make is that you mentioned 
Western Union in both your written and oral testimony. When we 
read that yesterday, we contacted Western Union and asked them 
if they would like to submit a written statement for the 
record. They may do that, and if so, I will send it to you for 
your reply as well so that the record is complete.
    To the other members of the panel, thank you as well. There 
could be written questions coming your way. We certainly 
appreciate your being here today.
    Thank you.
    Chairman Durbin. We are now going to move to the second 
panel of witnesses and complete the hearing. As these witnesses 
are taking their place at the witness table, I am going to give 
you a brief bio for each in the interest of saving some time.
    Our first witness will be Professor Denise Dresser, who has 
been a professor of Political Science at the Instituto 
Tecnologico Autonomo de Mexico since 1991. She is a 
contributing editor at the Los Angeles Times, writes a 
political column for the Mexican newspaper Reforma and the news 
weekly Proceso. I hope I pronounced that correctly. Professor 
Dresser is the author of numerous publications on Mexican 
politics and on U.S.-Mexico relations. She has taught at the 
highly regarded Georgetown University and the University of 
California at Berkeley. She has a doctoral degree in politics 
from Princeton University and a bachelor's degree from El 
Colegio de Mexico. Professor Dresser, thank you for traveling 
so far to join us today.
    We also have as a witness Jorge Luis Aguirre, Founder and 
Director of LaPolaka.com, the most popular electronic newspaper 
in the State of Chihuahua. Mr. Aguirre was born in the State of 
Chihuahua in Mexico and has worked as a journalist for three 
decades, has a law degree from Universidad Autonoma de Ciudad 
Juarez. I majored in French. Mr. Aguirre was forced to flee 
from Juarez late last year because of his work as a journalist, 
and he is currently living in hiding in El Paso. The topic of 
today's hearing has affected his life personally in a way that 
most of us can only imagine.
    I would ask the witnesses if they would not mind standing 
to accept the oath before their testimony, so if you would not 
mind, both please stand. Do you affirm that the testimony you 
are about to give will be the truth, the whole truth, and 
nothing but the truth, so help you God?
    Ms. Dresser. I do.
    Mr. Aguirre. I do.
    Chairman Durbin. Let the record reflect that both witnesses 
have answered in the affirmative.
    Professor Dresser, your written statement will be part of 
the record, and now if would give us your oral statement, 
please.

    STATEMENT OF DENISE EUGENIA DRESSER GUERRA, PROFESSOR, 
DEPARTMENT OF POLITICAL SCIENCE, INSTITUTO TECNOLOGICO AUTONOMO 
                 DE MEXICO, MEXICO CITY, MEXICO

    Ms. Dresser. Thank you. Chairman Durbin, honorable members 
of the Committee, I welcome the opportunity to speak about 
Mexico's efforts to combat drug trafficking and organized 
crime.
    As has been said earlier today, at the helm of an 
increasingly visible and active army, President Felipe Calderon 
has declared a war against drug trafficking and the organized 
crime networks it has spawned. Given the increasingly lawless 
conditions of the country he inherited, Calderon had little 
choice but to act, and he is to be commended for doing so, 
because my home has become a place where too many people die, 
gunned down by a drug trafficker or assaulted by a robber or 
shot by an ill-trained police officer or kidnapped or strangled 
by a member of a criminal gang.
    Now, dealing with this problem that Calderon took on has 
not been easy, because the surge of drug trafficking in Mexico 
reflects a painful paradox. The government's drug efforts are 
undermined by the corrupting influence of the drug trade, yet 
the drug trade cannot survive without the protection of 
compromised elements within the government itself. As a result, 
it frequently becomes difficult to distinguish those charged 
with smuggling from the smugglers themselves. Mexico is a place 
where, if you are the victim of a crime, the last person you 
call is a police officer.
    In the face of police corruption, Calderon has turned to 
the military to take on the anti-drug effort, but the bringing 
of soldiers out of the barracks and moving them around the 
country at will is also a cause for concern. Given its expanded 
role, the military is becoming the supreme authority, in some 
cases the only authority, in parts of some states, and great 
militarization is also leading to corruption within an 
institution that has turned into the last credible beachhead in 
Mexico's longstanding battle.
    What we have seen is that over the past decade, Mexico's 
transition to democracy has cast a glaring light on our 
precarious, uneven, and limited rule of law. Cases of official 
corruption abound, and the credibility of public institutions 
has suffered when those proven guilty have eluded punishment. 
As a result, impunity runs rampant. Imagine living in a country 
where 75 percent of crimes are never reported due to lack of 
trust in the authorities and where 98 percent of crimes are 
never resolved or punished.
    So while President Calderon's efforts are to be applauded, 
they must also be accompanied by comprehensive efforts that 
entail more than soldiers on the streets. The prospects for a 
more stable, less insecure Mexico will be contingent on the 
government's capacity to enact a major overhaul of the 
judiciary and law enforcement apparatus. It will be dependent 
on the government's political will to confront corruption at 
the highest levels of the political system--something the 
President has been reluctant to do. Otherwise, it will not 
matter how many troops are trained, how many weapons are 
shipped, and how many helicopters are bought.
    Colombia has spent over $5 billion in U.S. aid with mixed 
results, more security but no end to the drug production. So 
the lesson is clear: One of the main objectives of the war that 
the Mexican Government is fighting should not only be the 
destruction of the drug cartels, but also the construction of 
the rule of law in Mexico.
    I would urge you to face what has undoubtedly become a 
shared bilateral challenge with honesty, realism, and 
determination, and that would entail a recognition of U.S. 
responsibilities, an understanding of what the U.S. has done 
and failed to do vis-a-vis Mexico.
    As has been said, Mexican drug traffickers buy arms that 
the U.S. sells. Over 2,000 weapons cross the border on a daily 
basis, and many of them are sold in an illegal fashion. Mexican 
drug traffickers provide cocaine that U.S. users demand. Over 
35 million American citizens are drug users. Mexican drug 
traffickers have been able to set up distribution networks 
across over 200 U.S. cities because very little has been done 
to stop them.
    So, in the face of an increasingly dire situation, the U.S. 
can help by providing more anti-narcotics operations within its 
own borders of the sort announced by Attorney General Eric 
Holder several weeks ago. The U.S. can help, as has been 
suggested here by Terry Goddard, on clamping down on money 
laundering and financial flows that have enabled people like 
Mexican drug trafficker Joaquin Guzman to amass a billion 
dollar fortune and enter the Forbes list. The U.S. can help by 
addressing the demand for drugs in its own cities, and 
President Obama's recent remarks in this regard are most 
welcome.
    The U.S. can help by cooperating more and not less on 
security matters, and in this regard, it is worrisome that the 
funds channeled to the Merida Initiative were reduced recently.
    Finally, I think the U.S. Government and its people need to 
understand that this war cannot be waged effectively if the 
demand for drugs here is not stymied. To believe that it can be 
won without dealing with drug consumption and demand-driven 
forces in the U.S. is to believe that one can stop an 
earthquake or a hurricane. For every drug trafficker that is 
caught, another one will emerge in his place. Indeed, Mexico is 
paying a very high price for our inability--and I think we 
recognize this--to construct a prosperous, dynamic, inclusive, 
lawful country in which citizens are not propelled into illicit 
activities in order to survive and criminals are not protected 
by the government itself. But we are also paying a very high 
price for American voracity. Ours is a shared problem that will 
require shared solutions. Ours is a joint struggle that will 
demand, if not the audacity of hope, at least the audacity of 
understanding that the time has come to make the neighborhood, 
our neighborhood, safe again.
    Thank you very much.
    [The prepared statement of Ms. Dresser appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Professor Dresser.
    Mr. Aguirre, I understand you are going to rely on an 
interpreter, and we invite you now to submit your oral 
testimony.

  STATEMENT OF JORGE LUIS AGUIRRE, JOURNALIST, EL PASO, TEXAS

    Mr. Aguirre. [In English.] Chairman Durbin and Chairman 
Feinstein, members of the Subcommittee, and members of the 
Caucus, I thank you for inviting me to testify firsthand about 
some of the suffering and death that people who live along the 
border between the State of Chihuahua and Texas face on a daily 
basis.
    It must be difficult for you to get an inside view of the 
belly of the beast from here and to understand the devastating 
corruption that devours Ciudad Juarez, where violence has 
erased all authority and government from the map and replaced 
it with a dictatorship of the crime underworld.
    Starting a few months back, the government of Chihuahua 
allowed the state to be converted into an instrument of 
organized crime. Press freedom is threatened by a terrifying 
dilemma: ``Plata o Plomo,'' meaning accept a bribe or face a 
bullet!
    I am exiled from my country and staying in El Paso with my 
wife and three children legally on a temporary visa because of 
this violence. Thanks to God and the hospitality of this 
blessed country, which really cannot be underestimated, I am 
still alive.
    The story of my exile began on November 13, 2008, when 
Armando Rodriguez, a friend and journalist at El Diario, was 
shot dead outside his home. That night, when I was driving to 
Armando's wake in my pickup truck, my cell phone rang. I was at 
a busy intersection and waiting for the light to turn green, so 
I took the call.
    Recalling the conversation still scares me:
    ``Jorge Luis Aguirre? '' asked a man with an eerie voice.
    ``Yes? '' I said.
    ``You're next, son of a [expletive deleted]! '' yelled the 
man.
    I almost went into a state of shock. I didn't know if it 
was sweat or a cold chill that was running through my body. I 
thought I was going to be riddled with bullets right there.
    I looked all around, expecting to see rifles pointing at my 
head, but didn't see anything. The cars started moving and I 
accelerated too, turning around to head back home. On the way, 
I called my wife and, without giving her any details because I 
didn't want her to worry, I asked her to pick me up on a quiet 
road where I would be waiting on foot. I told her to bring our 
sons as well. That night, we crossed the border in my wife's 
car and thankfully saved our lives.
    Weeks later, I confirmed the source of the threats. Victor 
Valencia, a representative of the Governor of the State of 
Chihuahua, had sent people to warn me to ``tone down'' my 
criticisms of the Prosecutor, Patricia Gonzalez--I mean 
Chihuahua's Attorney General--because if I didn't, he was going 
to kill me, using the Juarez drug cartels' preferred method of 
kidnapping followed by execution.
    In early December, Victor Valencia called and threatened 
the woman who had passed along his messages before. She is a 
U.S. citizen and lives in El Paso. Valencia told her that 
Patricia Gonzalez was very upset with me, and that she was 
going to come after her and me in El Paso to kidnap us and 
murder us in Juarez.
    For obvious reasons, my return to Juarez would be a death 
sentence. I would likely face fire from AK-47s upon crossing 
the border into Mexico.
    I am sure you are wondering what has happened in Juarez 
since I received these threats. Nothing. In Mexico, it is an 
aggravated crime to investigate serious political offenses. 
Those who try to investigate them can lose their jobs or even 
be executed.
    Impunity rules. There has been no order or government for 
many years now. In the desert, innocent people--women, men, 
teenagers, and children--die, sometimes buried alive.
    Today, I live in exile in a foreign country in order to 
avoid being murdered for my work as a journalist. I left my 
office, my house, my friends, and several years of my life 
dedicated to work. In contrast, those who persecuted me are 
still in their government positions, using public money to try 
to attain their objectives of becoming a representative, mayor 
of Juarez, or Governor of Chihuahua.
    On a daily basis, ordinary citizens in Juarez are condemned 
to die, to be kidnapped, to be assaulted, to suffer extortion, 
or to be exiled at any moment. Who can help them if they are 
persecuted and threatened? Criminals, police, and politicians 
are often one and the same. People are more afraid of the 
police than of the drug cartels.
    The press has been silenced both by force and through self-
censorship. My exile is a taboo subject in Chihuahua. It is not 
mentioned by legislators, political parties, ombudsmen, or the 
press.
    The violence in Juarez crossed the border into the United 
States a long time ago. For this reason, I continue to live in 
hiding in El Paso. Every day, I pray with my wife because God 
has kept me alive.
    Sometimes, I look at the mountains of Juarez and dream, 
like many people, of a city that is no longer a paradise for 
drug cartels, but a safe and dignified place where I can live 
with my family.
    God bless America, God bless Mexico, and God bless Ciudad 
Juarez! Thank you.
    [The prepared statement of Mr. Aguirre appears as a 
submission for the record.]
    Chairman Durbin. Mr. Aguirre, thank you very much. It took 
a lot of courage for you to come here today, and we appreciate 
it. Your heartfelt testimony puts a human face on numbers and 
policies, and I thank you for your courage in being here today.
    We have had a lot of discussion here today about the drugs 
and the demand for drugs in the United States. I thought 
Attorney General Goddard was honest and candid with us about 
that issue. We talked about the cash. I want to speak about the 
guns for a moment.
    I would like to ask each of you, What does the average 
Mexican think about the role of the United States in supplying 
all these guns to the drug cartels? Do they believe that the 
United States is doing everything that it can to try to lessen 
this traffic in weapons that is headed into Mexico, giving 
these drug cartels an arsenal of modern weapons, many of them 
military weapons, that they can use to terrorize the people, 
the innocent people, like Mr. Aguirre and others? Professor 
Dresser?
    Ms. Dresser. I think that if you asked any Mexican today 
about the role of the U.S. in multiple regards, not only the 
weapons, the response would be, ``You are not doing enough.'' 
We are waging a war that is demand driven. We are waging a war 
that we are paying a very high price for. And yet, over the 
past years, there seems to have been very little effort in 
terms of curbing demand, stopping the flow of drugs across the 
border, dealing with money laundering and so on.
    Too frequently, all the blame is placed on Mexico, and it 
is clear that drug trafficking has built upon a country with 
weak institutions and an infiltrated state. But at the same 
time, there is a perception that we would not be waging this 
war were you not one of the largest consumers of drugs in the 
world.
    So I think there is a perception today of a need for the 
U.S. to understand its own responsibilities and own up to them. 
I think Mexicans feel that at every hearing they are deservedly 
bashed in some areas, but that too much blame is placed on 
Mexico's shoulders in the context of a country that has many 
less resources to deal with this issue than you do in terms of 
intelligence, courts, law enforcement, that Mexico is 
struggling to keep up with this tidal wave, but that not enough 
is being done north of the border.
    Chairman Durbin. Mr. Aguirre, I would like to ask you the 
same question. Since you have been a victim of this violence 
and these threats, how do people in Juarez and the people that 
you speak to in Mexico view the role of the United States in 
this whole troubled time, whether it is the demand for drugs, 
the money that is flowing back into Mexico, or the weapons 
flowing into Mexico, or the coyotes bringing people illegally 
into the United States? How do the Mexican people view our 
Nation in this context?
    Mr. Aguirre. Excuse my English. I would like to----
    Chairman Durbin. No, that is fine. We will rely on your----
    Mr. Aguirre.--speak in Spanish.
    Chairman Durbin. That is fine.
    The Interpreter. He says that Mexico needs a lot of support 
from the U.S., and people think that it is not enough at the 
moment. And in the State of Chihuahua, there is not an actual 
government. The government of the State of Chihuahua is not 
actually governing what is going on. And the actions that are 
taken by Felipe Calderon, the President of the nation, are 
having a huge impact in the state, but people want the U.S. to 
take care that it does not get corrupted as well, because 
usually what happens in these kind of situations in Mexico is 
that one comes and takes off the other, but then gets corrupted 
and does the same. So people want the U.S. to take care that it 
does not happen with the army the same that is going on with 
the local law enforcement.
    And also that the politicians are so corrupted and so--and 
are the same as the cartels, and people wish the politicians to 
be punished as well.
    Chairman Durbin. Thank you.
    Senator Feinstein?
    Chairman Feinstein. I would like to thank you both very 
much for testifying.
    Mr. Aguirre, you are a very brave man, and I thank you for 
that. And you have made a friend in me, and anything I can do 
to help you, I certainly will. And I think I could say that for 
the other members of this Committee, the members that are here 
right now and those that are not.
    I have read about you in the newspapers and am just very 
pleased to know that there are people like you in the world. So 
be strong.
    Mr. Aguirre. Thank you, ma'am.
    Chairman Feinstein. We will take some action. I think there 
is no question that we are at a time of real escalating 
conflict with the Mexican drug cartels.
    Professor Dresser, you are right about the demand problem. 
We are the cause. We have the demand problem, and we need to 
pay attention to that as well.
    It becomes very difficult because the only proposals we are 
given to consider, on the one hand, legalize drugs and, on the 
other hand, keep going the way we are going. For a government, 
the legalization of narcotics, when you see what they can do to 
an individual and have watched the legalization in other 
countries, is very difficult. So we are searching for a path 
there.
    I think the prior panel has been very helpful. Senator 
Durbin has pointed out, I think, some very good steps that we 
can take, and we will look into those and try to take them. But 
I would hope that you would continue to give us your thoughts 
and your ideas, in writing if necessary, or by phone. And, Mr. 
Aguirre, I would just hope that you would stay in contact with 
us, and any information you have to provide us we would be very 
happy to receive.
    So thank you both very, very much.
    Chairman Durbin. Thank you, Senator Feinstein.
    Senator Sessions?

STATEMENT OF HON. JEFF SESSIONS, A U.S. SENATOR FROM THE STATE 
                           OF ALABAMA

    Senator Sessions. Thank you very much, and I just would 
repeat that I am proud of Mexico and that they are beginning to 
confront this systemic problem. It threatens the integrity of 
the entire Mexican Government. People's lives are at stake.
    Don't you think, Mr. Aguirre, that--well, I will ask your 
opinion. How do you feel about Mr. Calderon and the increased 
effort that they are making against the cartels? Wouldn't you 
agree that his life may be in danger and a lot of other people 
who are executing that, but they are attempting to do so and 
making some progress?
    Mr. Aguirre. [Interpreted from Spanish.] I believe Calderon 
is the first President of Mexico who is trying to make it for 
our country, and I really hope that he can actually gain back 
the security that criminals have taken off the government--the 
power that criminals have taken off the government.
    I believe, of course, that his life is in danger, as well 
as all of the people that are involved in this drug war, 
including us journalists that are trying to do our work 
honestly, and people in general that are every day threatened 
and killed.
    I believe it is a lot of cultural thing, issue, that Mexico 
has to change its point of view about America and see it as an 
ally rather than an enemy, as well as America should see Mexico 
as a neighbor and an ally instead of a backyard disposal.
    Senator Sessions. Well, thank you. I agree with that. I was 
active in the Mexican-American Interparliamentary for a number 
of years, chaired that for a while, and it got better over the 
years, but I think it was sort of a ``Blame America'' 
conference for a while there. And we had some really good times 
and learned some of the frustrations that Mexico deals with. 
But I think we need to get away from blame and see how we can 
work together to be successful in this common effort.
    My personal view, having been a Federal prosecutor that 
prosecuted international drug-smuggling cases out of Mexico and 
Colombia and Haiti and all over the world, actually, and having 
studied the issue some, I believe the best thing we can do is 
to aggressively prosecute and eliminate the cartel groups that 
are in the United States selling the drugs and collecting the 
money, sending it back to fund these groups. And if they do not 
get guns from the United States, they will get them from their 
own military. They will steal them from other countries. They 
will buy them on the markets out there.
    The problem really is not the guns. It is a part of it. But 
the real problem is that this group is attempting to continue 
an illegal operation in Mexico, and they will intimidate and 
kill people who try to stop them. And we need to be as helpful 
as we can be. We sent, I think, a billion-plus dollars now to 
our joint effort. I hope that that will be successful. We have 
a common problem, and we need to work together to solve it.
    Thank you, Mr. Chairman. It is a very good panel.
    Chairman Durbin. Thank you, Senator Sessions.
    Those that follow this Committee will not be surprised to 
know that Senator Sessions and I may see issues a little 
differently. And so, for the record, I would like to say guns 
are a problem. Guns are a serious problem. The fact that 
literally thousands of guns are flowing from the United States 
into Mexico every day is arming these drug cartels so that they 
can kill Mr. Aguirre's colleague and threaten his life and 
force his family out of the country.
    Senator Sessions. I would just say, Mr. Chairman, just in 
response, there are already guns in Mexico. They can guns from 
South America. They can get them from their own military. 
American guns are already there. We have a constitutional right 
in America to keep and bear arms, and we are not changing our 
Constitution.
    Chairman Durbin. I would just say----
    Senator Sessions. So I just would say that the--why are 
people being killed at such an extraordinary rate across the 
border in Mexico, so much higher, hundreds of times higher than 
in the United States where we have guns, too?
    Chairman Durbin. May I respond?
    Senator Sessions. Yes.
    Chairman Durbin. I recognize the right of American citizens 
to defend themselves, to use guns legally for sporting and 
hunting. That is part of America's Constitution as decided by 
the Supreme Court. It is part of the American experience. We 
are different than some other countries. That is the way we see 
it when it comes to firearms.
    That does not allow us to aid and abet criminal 
conspiracies in neighboring countries by shipping thousands of 
firearms every day with impunity. To ignore our laws and 
policies makes life dangerous for people living south of the 
border.
    We have a responsibility, and to ignore it by saying, well, 
if we were not irresponsible, somebody else would be 
irresponsible, is cold comfort to people living in a country 
where 6,000 people were killed last year, mainly because of 
American firearms and the insatiable American appetite for 
drugs. That is the way I feel. I disagree with the Senator from 
Alabama, but I wanted to put it on the record.
    Senator Sessions. I do not think it is all our fault.
    Chairman Durbin. I never said it was.
    Before I end, I would like to place in the record written 
statements from the following organizations and individuals: 
Border Network for Human Rights, Brady Campaign to Prevent Gun 
Violence, Conference of Western Attorneys General, 
International Union of Police Associations, Major County 
Sheriffs, Mexico Institute at the Woodrow Wilson Center, 
National Association of Police Organizations, National District 
Attorneys Association, National Narcotics Officers Association, 
National Sheriffs Association, Washington Office on Latin 
America, Houston Police Chief Harold Hurtt, and San Diego 
Police Chief Bill Lansdowne. Without objection, they will be 
included in the record.
    If there are no further comments, I would like to thank 
those who attended. Again, Professor Dresser, thank you for 
your fine testimony. Mr. Aguirre, thank you for your courage in 
coming here today. You have given us a perspective on this 
issue that we could not have from anyone else.
    At this point, this session will stand adjourned. Witnesses 
may receive written questions and will be asked to give prompt 
replies.
    Thank you.
    [Whereupon, at 1:05 p.m., the Subcommittee and the Caucus 
were adjourned.]
    [Questions and answers and submissions for the record 
follow.]
[GRAPHIC] [TIFF OMITTED] 56913.001

[GRAPHIC] [TIFF OMITTED] 56913.002

[GRAPHIC] [TIFF OMITTED] 56913.003

[GRAPHIC] [TIFF OMITTED] 56913.004

[GRAPHIC] [TIFF OMITTED] 56913.005

[GRAPHIC] [TIFF OMITTED] 56913.006

[GRAPHIC] [TIFF OMITTED] 56913.007

[GRAPHIC] [TIFF OMITTED] 56913.008

[GRAPHIC] [TIFF OMITTED] 56913.009

[GRAPHIC] [TIFF OMITTED] 56913.010

[GRAPHIC] [TIFF OMITTED] 56913.011

[GRAPHIC] [TIFF OMITTED] 56913.012

[GRAPHIC] [TIFF OMITTED] 56913.013

[GRAPHIC] [TIFF OMITTED] 56913.014

[GRAPHIC] [TIFF OMITTED] 56913.015

[GRAPHIC] [TIFF OMITTED] 56913.016

[GRAPHIC] [TIFF OMITTED] 56913.017

[GRAPHIC] [TIFF OMITTED] 56913.018

[GRAPHIC] [TIFF OMITTED] 56913.019

[GRAPHIC] [TIFF OMITTED] 56913.020

[GRAPHIC] [TIFF OMITTED] 56913.021

[GRAPHIC] [TIFF OMITTED] 56913.022

[GRAPHIC] [TIFF OMITTED] 56913.023

[GRAPHIC] [TIFF OMITTED] 56913.024

[GRAPHIC] [TIFF OMITTED] 56913.025

[GRAPHIC] [TIFF OMITTED] 56913.026

[GRAPHIC] [TIFF OMITTED] 56913.027

[GRAPHIC] [TIFF OMITTED] 56913.028

[GRAPHIC] [TIFF OMITTED] 56913.029

[GRAPHIC] [TIFF OMITTED] 56913.030

[GRAPHIC] [TIFF OMITTED] 56913.031

[GRAPHIC] [TIFF OMITTED] 56913.032

[GRAPHIC] [TIFF OMITTED] 56913.033

[GRAPHIC] [TIFF OMITTED] 56913.034

[GRAPHIC] [TIFF OMITTED] 56913.035

[GRAPHIC] [TIFF OMITTED] 56913.036

[GRAPHIC] [TIFF OMITTED] 56913.037

[GRAPHIC] [TIFF OMITTED] 56913.038

[GRAPHIC] [TIFF OMITTED] 56913.039

[GRAPHIC] [TIFF OMITTED] 56913.040

[GRAPHIC] [TIFF OMITTED] 56913.041

[GRAPHIC] [TIFF OMITTED] 56913.042

[GRAPHIC] [TIFF OMITTED] 56913.043

[GRAPHIC] [TIFF OMITTED] 56913.044

[GRAPHIC] [TIFF OMITTED] 56913.045

[GRAPHIC] [TIFF OMITTED] 56913.046

[GRAPHIC] [TIFF OMITTED] 56913.047

[GRAPHIC] [TIFF OMITTED] 56913.048

[GRAPHIC] [TIFF OMITTED] 56913.049

[GRAPHIC] [TIFF OMITTED] 56913.050

[GRAPHIC] [TIFF OMITTED] 56913.051

[GRAPHIC] [TIFF OMITTED] 56913.052

[GRAPHIC] [TIFF OMITTED] 56913.053

[GRAPHIC] [TIFF OMITTED] 56913.054

[GRAPHIC] [TIFF OMITTED] 56913.055

[GRAPHIC] [TIFF OMITTED] 56913.056

[GRAPHIC] [TIFF OMITTED] 56913.057

[GRAPHIC] [TIFF OMITTED] 56913.058

[GRAPHIC] [TIFF OMITTED] 56913.059

[GRAPHIC] [TIFF OMITTED] 56913.060

[GRAPHIC] [TIFF OMITTED] 56913.061

[GRAPHIC] [TIFF OMITTED] 56913.062

[GRAPHIC] [TIFF OMITTED] 56913.063

[GRAPHIC] [TIFF OMITTED] 56913.064

[GRAPHIC] [TIFF OMITTED] 56913.065

[GRAPHIC] [TIFF OMITTED] 56913.066

[GRAPHIC] [TIFF OMITTED] 56913.067

[GRAPHIC] [TIFF OMITTED] 56913.068

[GRAPHIC] [TIFF OMITTED] 56913.069

[GRAPHIC] [TIFF OMITTED] 56913.070

[GRAPHIC] [TIFF OMITTED] 56913.071

[GRAPHIC] [TIFF OMITTED] 56913.072

[GRAPHIC] [TIFF OMITTED] 56913.073

[GRAPHIC] [TIFF OMITTED] 56913.074

[GRAPHIC] [TIFF OMITTED] 56913.075

[GRAPHIC] [TIFF OMITTED] 56913.076

[GRAPHIC] [TIFF OMITTED] 56913.077

[GRAPHIC] [TIFF OMITTED] 56913.078

[GRAPHIC] [TIFF OMITTED] 56913.079

[GRAPHIC] [TIFF OMITTED] 56913.080

[GRAPHIC] [TIFF OMITTED] 56913.081

[GRAPHIC] [TIFF OMITTED] 56913.082

[GRAPHIC] [TIFF OMITTED] 56913.083

[GRAPHIC] [TIFF OMITTED] 56913.084

[GRAPHIC] [TIFF OMITTED] 56913.085

[GRAPHIC] [TIFF OMITTED] 56913.086

[GRAPHIC] [TIFF OMITTED] 56913.087

[GRAPHIC] [TIFF OMITTED] 56913.088

[GRAPHIC] [TIFF OMITTED] 56913.089

[GRAPHIC] [TIFF OMITTED] 56913.090

[GRAPHIC] [TIFF OMITTED] 56913.091

[GRAPHIC] [TIFF OMITTED] 56913.092

[GRAPHIC] [TIFF OMITTED] 56913.093

[GRAPHIC] [TIFF OMITTED] 56913.094

[GRAPHIC] [TIFF OMITTED] 56913.095

[GRAPHIC] [TIFF OMITTED] 56913.096

[GRAPHIC] [TIFF OMITTED] 56913.097

[GRAPHIC] [TIFF OMITTED] 56913.098

[GRAPHIC] [TIFF OMITTED] 56913.099

[GRAPHIC] [TIFF OMITTED] 56913.100

[GRAPHIC] [TIFF OMITTED] 56913.101

[GRAPHIC] [TIFF OMITTED] 56913.102

[GRAPHIC] [TIFF OMITTED] 56913.103

[GRAPHIC] [TIFF OMITTED] 56913.104

[GRAPHIC] [TIFF OMITTED] 56913.105

[GRAPHIC] [TIFF OMITTED] 56913.106

[GRAPHIC] [TIFF OMITTED] 56913.107

[GRAPHIC] [TIFF OMITTED] 56913.108

[GRAPHIC] [TIFF OMITTED] 56913.109

[GRAPHIC] [TIFF OMITTED] 56913.110

[GRAPHIC] [TIFF OMITTED] 56913.111

[GRAPHIC] [TIFF OMITTED] 56913.112

[GRAPHIC] [TIFF OMITTED] 56913.113

[GRAPHIC] [TIFF OMITTED] 56913.114

[GRAPHIC] [TIFF OMITTED] 56913.115

[GRAPHIC] [TIFF OMITTED] 56913.116

[GRAPHIC] [TIFF OMITTED] 56913.117

                                 <all>

</pre></body></html>
